<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 HAROLD ROGERS, Kentucky             JOSE E. SERRANO, New York
 JIM KOLBE, Arizona                  ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina   LUCILLE ROYBAL-ALLARD, California
 RALPH REGULA, Ohio                  ROBERT E. ``BUD'' CRAMER, Jr., 
 TOM LATHAM, Iowa                    Alabama
 DAN MILLER, Florida                 PATRICK J. KENNEDY, Rhode Island 
 DAVID VITTER, Louisiana            
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
    Gail Del Balzo, Mike Ringler, Christine Ryan, and Leslie Albright
                           Subcommittee Staff
                                ________
                                 PART 9

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 73-378                     WASHINGTON : 2001




                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
    DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2002

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                             

                                         Wednesday, April 25, 2001.

                                WITNESS

HON. WES WATKINS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA
    Mr. Wolf. Welcome, Wes. Your full statement will appear in 
the record. You can go ahead.
    Mr. Watkins. Thank you, Mr. Chairman. It's good to see you 
remaining as a cardinal, all your good work.
    As a former Member of this Committee, Appropriations 
Committee, I understand the tough job you have getting the job 
done. And also as a member of the Budget Committee, I'm trying 
to help you as much as I can, you know, to not have all those 
restrictions.
    Mr. Wolf. So is this the rescission you're asking for?
    [Laughter.]
    Mr. Wolf. That was a joke.
    Mr. Watkins. Yes. So I understand the restraints and all 
these things like that, Mr. Chairman, and I appreciate it, but 
I would like to come before this Subcommittee again this year 
under your leadership and request some continued funding and 
continued help, one for international trade, which we requested 
$1 million for. And that's just for the CITD. And $200,000 for 
the rural enterprises phase of it.
    We are making an all-out effort to expand business 
industries in this Rural Economic Depressed Area and helping 
link them with global trade. It is working, and we appreciate 
every bit of help we can get and we appreciate your support.
    Also the same thing with the Rural Economic Depressed Area, 
HAV, the out-migration over all the years into the urban 
centers. We are seeing some migration back in. We are starting 
to see some economic growth.
    One thing that we have had is a Digital Divide in rural 
areas where we have not been able to capture the high 
technology. And recognizing that, I have worked with my career 
tech or State Vo Tech system, which happens to be in my home 
town, and we have a number of the Vo Tech or Career Tech 
institutions throughout my district that help to provide 
training.
    But we are trying to provide linkage by not only developing 
the hub at the state office but linking into the Rural Economic 
Depressed Areas so that the training can take place by the 
industry in that area and also training can take--actually, 
business could end up being done in those areas. Let me give 
you an example:
    The day after the election--I thought it was the day after 
the election; it was November 8th, the election was on November 
7th--I went to Silicon Valley. I went out and met with about 22 
companies, talking to them about the Rural Economic Depressed 
Areas and their help.
    One company said, well, you know, if we could find 500 
people, they would hire 500 more people. I nearly wanted to 
cry, because I could not give them 500 in any one of my towns, 
because my towns are too small. But by linking with the hub to 
high tech incubators or to high tech facilities, I might could 
in one community put 100 together for that company, in another 
community 50, in another community 150.
    I can have, I found in my survey I found, over 8,000 people 
in my district who have taken computer training or above in 
some of their technology work. So we have a lot of people out 
there, but they stay right there.
    The ironic thing about it is:  information technology 
companies, one of their biggest problems has been the stability 
of the workforce, which is difficult in the big cities. Well, 
in small-town America, 50 jobs would be a major impact to that 
little community. And they are there because they want to live 
there.
    Mr. Wolf. Right.
    Mr. Watkins. So I am working to link all that together in 
the State of Oklahoma in my district to try to reverse that 
Economic Depressed Area that has been there basically since the 
Great Depression. And with your help and continued support from 
this Committee, I feel like we are going to be able to have a 
role model, a pilot program that will prove much success.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.001
    
    [GRAPHIC] [TIFF OMITTED] T3378A.002
    
    [GRAPHIC] [TIFF OMITTED] T3378A.003
    
    Mr. Wolf. Good. Well, we will try to help you, also. We 
have a Center for Innovative Technology in Virgina, which is 
out of my Congressional District. All the high tech companies, 
AOL, WorldCom, UUNet, and the Center for Innovative Technology 
are developing relationships with small rural communities in 
the southwest of Virginia to hook them up and employ people 
there rather than bringing them all the way to Washington. So 
it can be done.
    Mr. Watkins. See, you are exactly right. You see, the only 
problem, I do not have those companies in my state----
    Mr. Wolf. Yes, yes.
    Mr. Watkins. And I am going to have to try to see if I can 
get maybe from here, others to----
    Mr. Wolf. Well it can be done. I spoke to a person a couple 
of months ago that told me that in a hospital, after an 
operation, a doctor dictates what went on in the operation. 
That is sent to India via the Internet. In India they 
transcribe it, and the next morning it comes in and it is 
printed out. And so if they can go from this metropolitan area 
to India and back the next day to be transcribed, you can 
certainly go from Silicon Valley to Oklahoma, and to Oklahoma 
and back.
    But thank you very much, Wes.
    Mr. Watkins. That's what I mean to do if you'll help me. 
Thank you so much.
                              ----------                              


                                WITNESS

HON. THOMAS BARRETT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WISCONSIN
    Mr. Wolf. Okay. Mr. Barrett, since you are here we will 
take you.
    Mr. Barrett. Thank you.
    Thank you, Chairman Wolf. And Mr. Serrano, it is a pleasure 
to be here. I am here on behalf of a request I have for funding 
for the Police Athletic League, an organization that gives more 
than----
    Mr. Wolf. PAL?
    Mr. Barrett. PAL. You got it--a million kids across the 
country an alternative to temptation on the streets.
    Mr. Wolf. I used to go to a PAL facility at a police 
station.
    Mr. Barrett. Have you got one?
    Mr. Wolf. No. I come from an inner city neighborhood in 
Philadelphia, and at 65th and Woodland was the Police Athletic 
League.
    Mr. Barrett. Okay.
    Mr. Wolf. I took my first boxing lesson there, actually, 
and it was a PAL. My Dad was a Philadelphia policeman, so I 
know all about PAL.
    Mr. Barrett. Okay. Well, good. Last session we passed a 
bill that authorized $60 million for programs, after-school 
programs. It is similar to the bill we passed several years ago 
and then appropriated $60 million for Boys and Girls Clubs.
    Mr. Wolf. I think the Administration cut that back to zero.
    Mr. Barrett. I know they did. But you will see in this 
week's Newsweek I think that they are seeing the light on this.
    Mr. Wolf. Well, I hope so, because President Bush went to a 
Boys Club in Wilmington several weeks before that announcement. 
And the day the budget came out, Secretary Thompson of HHS went 
to a Boys Club in the Washington, D.C. area to announce the HHS 
budget. So I would hope that there would be some sense that 
maybe it was a green eyeshade person at OMB who was thinking in 
terms of those things.
    Mr. Barrett. Well, that is the report I have gotten. And 
actually, because I have been involved in both the Police 
Athletic League funding and the Boys and Girls Club and talking 
to the National Boys and Girls Club leaders. They are not 
freaking out, because they think that it was a green eyeshade 
person who had done that, and that they are confident that they 
can get it back.
    The PAL approach is exactly the same. And my shtick is I 
would rather have these kids shooting basketballs than shooting 
each other. And I would rather have them pushing computer keys 
than pushing drugs. And I think this is the time of day when 
these kids get in trouble 3:00 to 7:00, and I want something 
for them to do between three o'clock and seven o'clock.
    So we are hoping that we can get an appropriation. Again, 
we had it authorized last year, and it was not controversial at 
all. But again, as the Boys and Girls--obviously, I am not here 
for the Boys and Girls Clubs right now, but I will put my push 
in for that as well.
    I think that both these programs are just great programs. 
And I honestly believe they work. So I have got my written 
statement that I will submit, but since you know what the PAL 
program is and you are familiar with the problem with the Boys 
and Girls Clubs.
    Mr. Serrano. My boxing career at the local PAL lasted one 
major workout, and I switched to the dramatics group after that 
immediately. [Laughter.]
    Mr. Serrano. It came in handy recently.
    Mr. Barrett. I had a similar experience where the 
basketball coach in the junior high school who helped my career 
immensely, because he told me that I was talentless. 
[Laughter.]
    Mr. Wolf. Talentless? I want to get that on the record.
    Mr. Barrett. Talentless. [Laughter.]
    So I knew not to concentrate my efforts on basketball.
    Mr. Wolf. You must have been something in your prime, 
though.
    Anyway, Mr. Serrano?
    Mr. Serrano. Well, no. Just from the inner city it is hard 
not to be touched by PAL, and I was.
    Mr. Barrett. And anywhere you go in the country, they are 
there. They work. And I really am a believer in these programs, 
because I want these kids to stay out of trouble. I would 
rather give them something to do than lock them up.
    So that is the whole ball of wax.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.004
    
    [GRAPHIC] [TIFF OMITTED] T3378A.005
    
    [GRAPHIC] [TIFF OMITTED] T3378A.006
    
    Mr. Wolf. Well, thank you. I understand. And we will look 
at the numbers. But I will tell you, I am certainly 
sympathetic.
    Mr. Barrett. Obviously all the police organizations are 
fully in support as well. So, no surprise there. But who do I 
give my magical testimony to?
    Mr. Wolf. You can provide it to the clerk. Hello, Senator.
    Thank you very much.
    Mr. Barrett. Thank you very much.
    Mr. Wolf. Okay. Bye now.
                              ----------                              


                                WITNESS

HON. BEN CAMPBELL, A SENATOR IN CONGRESS FROM THE STATE OF COLORADO
    Senator Campbell. I am a few minutes early. Do you want me 
to wait a while?
    Mr. Wolf. No, we will take you, Ben. That is fine.
    Senator Campbell. Thank you, Mr. Chairman.
    I appreciate the opportunity to appear before the 
Subcommittee in my capacity as the new Chairman of the Helsinki 
Commission, commonly called Helsinki Commission now. You are a 
member and have been for what, since 1998 is it?
    Mr. Wolf. No, no, back in the eighties.
    Senator Campbell. Eighty-nine. Much longer than I have been 
a member of it. But it has been interesting since I have been 
on the Commission the last few years. And I understand that Co-
Chairman Smith will not be able toappear. He was going to 
appear, but I understand he has another commitment.
    As you are aware, Mr. Chairman, I am certainly committed to 
invigorating participation in our Commission of colleagues in 
the critical work of promoting the core principles of the 
Helsinki Final Act:  democracy, human rights, the rule of law, 
and economic liberty.
    Over the last year under Mr. Smith's able chairmanship, the 
Commission maintained an unprecedented level of activity with 
the convening of 14 separate hearings on such timely issues as 
the crisis in Kosovo, the renewed conflict in Chechnya, 
political and human rights developments in Belarus, human 
rights and democratization in Central Asia, combatting the 
trafficking of women and children, and threats to religious 
liberty.
    The Commission has also provided important leadership in 
raising the visibility of the growing problem of corruption and 
international crime in the OSCE region, issues affecting the 
United States directly--including our political, security and 
economic interests.
    The Commission is well positioned, and I am certainly 
committed as the new Chairman to ensure that the Commission 
contributes to the important aim of pursuing policies that 
serve both our vital interests and our highest ideals.
    The comprehensive framework of the Commission's work 
encompassing security, economic and human dimensions, make it 
ideally suited to help foster democratic changes in the 
expansive OSCE region.
    The challenges are considerable. The dramatic proliferation 
of the new participating states from the original 35 to the 
current 55 presents new opportunities as well as challenges. 
The growing number of OSCE countries in transition, including 
the nations of the former Soviet Union and Yugoslavia, as well 
as East Central Europe, have placed new demands on the 
Commission.
    Additionally, many new laws affecting the fundamental human 
rights in OSCE countries, including the freedom of religion, 
the freedom of expression, national minorities, property 
restitution and others have also added significantly to the 
Commission's workload.
    The rise in the number of independent countries with their 
respective laws and foreign policy objectives requires 
augmented resources to ensure that the Commission maintains a 
close examination of these developments. This is particularly 
the case among the countries of the former Soviet Union, 
including Central Asia and the Caucasus.
    Mr. Chairman, as you can attest from your personal 
involvement in the Commission's work, the nonpartisan CSCE 
staff, is a team of dedicated professionals with outstanding 
qualifications and skills.
    Following my appointment as the Chairman in late January, I 
reviewed the resource requirements for the Commission in the 
light of the growing demands placed on the staff.
    The President's Fiscal Year 2002 budget request provides 
for the funding of the Commission at the level of $1,499,000, 
which is an increase of $129,000 over current funding.
    In order to ensure adequate coverage of the larger number 
countries and issues monitored by the Commission, I request 
that this Subcommittee fund the Commission in the Fiscal Year 
2002 at the President's budget requested level.
    Approval of this amount will enable the Commission to 
continue to play a leading role in advancing U.S. interests 
throughout the expansive OSCE region.
    Thank you, Mr. Chairman.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.007
    
    [GRAPHIC] [TIFF OMITTED] T3378A.008
    
    Mr. Wolf. Well thank you, Senator Campbell. I think 
Congressman Smith has done an amazing job. I think he has been 
very effective on this issue, and I know you will be too. And I 
think the Helsinki Committee has played a valuable role over 
the last couple of years, particularly since the fall of the 
Berlin Wall.
    So I thank you for coming.
    Senator Campbell. Thanks for your support.
    Mr. Wolf. One caution I would just ask you to kind of think 
about this year; Romania is now ahead of OSCE.
    Senator Campbell. Yes.
    Mr. Wolf. The Romanian government is now headed by Iliescu, 
who as part of the Ceausescu government. I find that hard to 
believe that the head of CSCE, or now OSCE, is coming from a 
country that was connected with the barbaric policies of the 
Ceausescu government.
    But the Romanian people have spoken. But I think it is 
something you ought to be cautious and watch, because their 
record with regard to human rights and religion freedom, they 
had the vicious Securitae. I mean, I can just go on and on. But 
something just is not right. And yet, it is a rotating basis, 
and they happen to be there at this time. But it is one that I 
am very, very concerned about.
    Senator Campbell. I concur, Mr. Chairman. We are monitoring 
that closely. I might also say, as you probably know, the OSCE 
is not well known in this country.
    Mr. Wolf. No it is not.
    Senator Campbell. But if you go to any country in Europe, 
it is very well known. OSCE is very high profile in those 
countries. It has really rather surprised me that so few 
Americans know what the Commission does.
    But it is an active, important, I think vital Commission to 
keep funded. And I note with interest that as the OSCE meetings 
in Europe, including the Parliamentary Assembly, they time 
sessions when the U.S. Congress is on break. That is how 
important U.S. participation is to those countries. They want 
us there. They know we have a very large delegation that 
participates in the assembly, and that we can only do it during 
our breaks. They actually time their meetings to coincide with 
our breaks so that we can make sure we get a good detail of 
people to come to it.
    So I am hoping that during the next two years during my 
tenure as Chairman that we can raise the profile of the OSCE in 
this country to let Americans know the importance of the 
Commission.
    Mr. Wolf. Well, thank you. And I think the Commission has 
had a good bipartisan record. I think Mr. Hoyer has done an 
amazing job, and it has worked very well together. And so thank 
you for your time, and I will recognizeMr. Serrano.
    Senator Campbell. Human suffering does not know 
partisanship, Mr. Chairman.
    Mr. Wolf. That is right.
    Mr. Serrano. I would like just to thank the senator for his 
fine presentation.
    Senator Campbell. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you very much.

                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Our next witness is Mr. Visclosky.
    Mr. Visclosky. Mr. Chairman, thank you very much, and I 
understand that my entire statement is entered into the record. 
We welcome you as Chair of the Subcommittee. And Mr. Serrano, 
given the generosity displayed by the Committee in its careful 
consideration of the task, I would simply indicate during my 
testimony today that I have a number of requests I have 
obviously made and would look forward to working closely with 
both the Chair as well as Mr. Serrano and our staff as we 
proceed to markup.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.009
    
    [GRAPHIC] [TIFF OMITTED] T3378A.010
    
    [GRAPHIC] [TIFF OMITTED] T3378A.011
    
    [GRAPHIC] [TIFF OMITTED] T3378A.012
    
    Mr. Wolf. Okay. Well, your full statement will appear in 
the record. Mr. Serrano, any questions?
    Mr. Serrano. No. I just want to thank him for his work, 
especially on the issue of bulletproof vests which he has 
championed throughout the time he has been here.
    Mr. Visclosky. And the Committee has just been very, very 
good. And I appreciate that very much. Because I do believe it 
is one of the very specific examples of action the Subcommittee 
and our full Committee has taken where people are alive today, 
specifically police officers, who would not be but for the work 
of this Subcommittee. They are alive today because of what you 
have done.
    Mr. Wolf. Well, I will give the credit to the Subcommittee 
because I was not on there at the time. But I do appreciate the 
comments and accept it on behalf of Mr. Rogers's and Mr. 
Serrano's Subcommittee. My Dad was a Philadelphia policeman, 
and I am totally sympathetic. But I cannot take any credit 
because I was not here. But Mr. Serrano can and Mr. Rogers and 
everyone else.
    But thank you very much.
    Mr. Visclosky. Take the credit, Mr. Chairman. [Laughter.]
    Mr. Wolf. Thank you very much.
    Mr. Visclosky. Thank you, Mr. Chairman.
                              ----------                              


                                WITNESS

HON. JOSEPH CROWLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Wolf. Mr. Crowley.
    Mr. Visclosky. Did you notice how quickly I was done, Mr. 
Crowley?
    Mr. Crowley. I was just going to mention that maybe I 
should take some cues from Mr. Visclosky.
    Mr. Wolf. No, we are actually running ahead of schedule. 
But, no, you do whatever you think is appropriate.
    Mr. Crowley. Mr. Chairman, how about in between? How does 
that sound? Do a little off, a little on. [Laughter.]
    Mr. Crowley. First let me thank you for this opportunity, 
Mr. Chairman, and welcome you in your new capacity as Chair of 
the Subcommittee. And I want to say hello to my good friend in 
the border district, Joe Serrano, for his help throughout the 
last term of Congress and hopefully he will be as helpful, and 
I know he will be in this term as well.
    Let me just begin by mentioning two areas, one first 
domestically and then later I am just going to a little 
internationally.
    The Neighborhood Enhancement Training and Servicing or 
N.E.T.S. program is a not-for-profit community-based 
organization that was established in 1978 as a senior citizens 
service provider.
    Since that time, N.E.T.S. has worked diligently to 
rejuvenate and enhance the quality of life in the community in 
the Bronx that I represent while simultaneously increasing its 
services.
    Today the N.E.T.S. program provides a great deal of 
services to young people at risk of involvement with drugs or 
crime or of dropping out of school. N.E.T.S. has expanded 
services in the past 20 years to include child safety, 
education, and neighborhood economic development in addition to 
a number of other after school and youth oriented programs.
    As a part of its commitment to aiding at-risk youth and 
providing youth services, N.E.T.S. would like to expand its 
current programs to include a high tech computer center. The 
N.E.T.S. Tech Center would provide 30 computer workstations for 
these youth and their families in order to equip them with the 
tools they will need to compete and succeed in this new 
Millennium.
    This Center is important because it will create a safe and 
educational learning environment for young people to spend 
their idle hours during the evening and after school hours 
instead of on the streets in harm's way.
    In addition to providing technology resources, the Tech 
Center will provide a variety of other activities, which will 
include musical and artistic endeavors, health and nutritional 
programs, parental education classes, GED preparation and adult 
literacy courses, among others.
    For these reasons, I am respectfully requesting that this 
Committee appropriate $427,770 for the establishment of this 
high-tech center. This program will provide services to a 
community that otherwise would not have access to such 
technology.
    The second request that I am placing before the Committee 
is for $75,000 to the Office of Criminal Justice Coordinator in 
the Office of the Mayor of the City of New York to further 
expand the community policing and neighborhood crimestoppers 
programs which exist throughout the City of New York.
    The Office of the Criminal Justice Coordinator handles the 
important task of working with both citizens, local community 
crimestopper groups and the police to form a cohesive unit to 
make the City of New York safer for all of its residents.
    The city has undergone a tremendous renaissance over the 
past decade, making it more livable, safer and a better place 
to raise a family. Our population has surged to over eight 
million, and every borough in our city has experienced a 
population gain.
    The residents and the police have worked extremely hard to 
make our city safer, and by many measures, they have succeeded. 
Still, more work needs to be done.
    Therefore, I respectfully request this funding to assist 
local community crimestopper groups and neighborhood watches--
groups with proven track records and who have worked with local 
police on different and innovative ways to better protect our 
communities and battle the scourge of crime, drugs, and an 
increasing problem with gangs in New York City.
    Groups such as the 114th Precinct Civilian Observation 
Patrol in Astoria, and Woodside on the Move in Queens, as well 
as the Morris Park Citizens Police Patrol in the Bronx deserve 
particular attention for the Success Programs and integrating 
both the area residents and businesses with their local police 
precincts for the betterment of all our community.
    Programs like these and other crimestopper programs are 
worthy of recognition and support. And again, our request is 
for $75,000 to be appropriated towards the Edward Byrne 
program, himself a former New York City police officer, and I 
believe would be in order.
    Additionally, I would like to touch on my strong support of 
our Maritime Academies, especially SUNY Maritime, located just 
outside of my District, and not in Mr. Serrano's District 
either, but in Nita Lowey's District.
    The State Maritime Academies are a model of state and 
federal partnerships. However, over the past 12 years, the 
State Maritime Academies have sustained cuts in their base of 
federal funding.
    I believe the Academies perform a valuable function in 
educating our nation's maritime professionals. Therefore, like 
many of my other colleagues, I would appreciate your support of 
a $13 million appropriation for the State Maritime Academies.
    There are a number of other important funding priorities in 
our country, and I appreciate you granting me the opportunity 
to come before you today and address several key needs to my 
constituents particularly in New York City.
    With regards to international issues, as both the 
representative of one of the most diverse Congressional 
Districts in the nation and as a Member of the International 
Relations Committee, I would like to implore this Committee to 
recognize the value inherent in the United States playing a key 
role in the international community, and in particular, 
supporting international peacekeeping activities.
    I realize the Committee on Appropriations is hampered by 
budget constraints, but international peacekeeping is a serious 
funding issue and cannot be ignored.
    Mr. Chairman, from fighting for improved human rights in 
China to your excellent work in both highlighting and 
thenworking to stop the trafficking of conflict diamonds and their role 
in supporting rebels in countries such as Sierra Leone, the Congo and 
other African nations, I applaud your leadership on international 
issues. I very much look forward to working with you to stop the trade 
of these diamonds and to support an active U.S. role in foreign 
affairs.
    Mr. Chairman, Mr. Serrano, and I would hope that you will 
communicate this to all the members of the Committee, I look 
forward to a productive year and working with everyone in this 
Chamber for our shared goal of a better America and a better 
world, and I thank you for this opportunity once again to bring 
just some of the issues of concern to my constituency before 
you today.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.013
    
    [GRAPHIC] [TIFF OMITTED] T3378A.014
    
    [GRAPHIC] [TIFF OMITTED] T3378A.015
    
    Mr. Wolf. Well, thank you very much. I am going to leave to 
go testify on the Senate side on an issue. But I support the 
peacekeeping generally and was one of the few Republicans last 
year that supported the peacekeeping.
    The problem, though, becomes in Sierra Leone with the 
conflict diamonds. The peacekeepers are not very, very 
aggressive, and the rebels still control most of the area. And 
65 percent of the diamonds are blood diamonds. They are 
conflict diamonds. They are cutting kids' arms off and hands 
off and ears off and even legs and even sometimes heads. 
Really, we are furnishing that.
    The diamond market knows that it is getting a very low 
price from the conflict diamond, and 65 percent are purchased 
here in the United States. The Administration, both previous 
and existing, have not dealt with this issue.
    The Congress has been reluctant. Powerful interests have 
been hired in this town and in New York City, big law firms, by 
the diamond interests to represent them. Nobody represents the 
poor kid who is getting his arm or her arm cut off.
    And in Sierra Leone, God bless the people there, the 
peacekeepers are not keeping the peace. They are basically 
eating lobster in downtown Freetown, not dealing with the 
issue, not very aggressive to be out there. Foday Sankoh has 
been in jail for almost a year. There has been no money with 
regard to bringing him to trial. The Liberian government, 
Charles Taylor, are taking the diamonds out of there and 
selling them, and we are doing nothing.
    The Congress is doing nothing because very powerful people 
have been hired to keep this Congress from acting, to keep the 
previous Administration from acting, and to keep this 
Administration from frankly acting.
    So just to dump more money--and I broke with my party last 
year and supported the peacekeeping against this Committee. 
Unusual that I should be here at this time. But just 
peacekeeping without being aggressive isn't working, we are 
continuing to let the kids get their arms cut off.
    Mr. Crowley. I appreciate that.
    Mr. Wolf. We have the burden, because Liberia was frankly a 
colony, if you will, that the United States used to support. 
Now there is no electricity. There is no water. The JFK 
Hospital has been closed. And life in Liberia is almost as grim 
as it is in Freetown.
    So I am for the peacekeepers, but I think the peacekeepers 
have to be aggressive and do something, or otherwise these kids 
are going to continue to be killed.
    Mr. Crowley. Well, Mr. Chairman, just count me on your side 
on that end. I think that to some degree they are somewhat 
separated.
    Mr. Wolf. They are.
    Mr. Crowley. I would fear what those countries would be 
like without the peacekeepers. And at the same time, we have to 
do more. And I agree we should be aggressively attacking the 
conflict diamond issue.
    Count me on your side. As a Member on the other side of the 
aisle, I am with you 100 percent.
    Mr. Wolf. Thank you. I am going to turn the Committee over 
to Mr. Serrano. I will be back in half an hour.
    Mr. Crowley. Are you sure you want to do that, Mr. 
Chairman? [Laughter.]
    Mr. Crowley. Even in a half an hour, we can have a lot of 
fun, Mr. Chairman.
    Mr. Serrano [presiding]. Right now I would say the Chairman 
is leaving. [Laughter.]
    Mr. Crowley. No, I was saying if you want to do that, 
because we will have a lot of fun. You can get a list of my 
comments, Acting Chairman Serrano.
    Mr. Serrano. I heard what you are saying.
    I also agree with the Chairman. I find peacekeeping, you 
know, using a bad pun, is a great alternative to war, and it is 
something that we should pursue, and we have been supportive of 
it on this side.
    As far as the at-risk programs and the Department of 
Justice in general, the preliminary, the first round of budget 
presentation by the President gives that Department a big hit. 
And how that will work out later on remains to be seen.
    But certainly, Joe, we will work closely to deal with the 
issues that we have.
    Mr. Crowley. Thank you, Congressman.
    [Cell phone rings.]
    Mr. Crowley. You and I have spoken behind the scenes about 
this, and I do not think anyone is as intimately aware of the 
needs and concerns of my District as you probably are, having 
the adjoining District. And I want to thank you for that 
support. And this is probably my wife on the phone again. So 
don't tell her I did that. [Laughter.]
    Mr. Serrano. Mr. Sherman.
    Mr. Crowley. I would like to see Mr. Sherman outside before 
he testifies if that is the case, then, if he can do better 
than I can. [Laughter.]
    Mr. Serrano. I think Crowley is quickly overstaying his 
welcome. [Laughter.]
                              ----------                              


                                WITNESS

HON. BRADLEY SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Sherman. Mr. Chairman, it is clear I can only go 
downhill from what I was doing a minute ago. There are several 
important projects that affect my District. I thank you for the 
opportunity to present them.
    The first is the Los Angeles Free Net project, where I am 
requesting $100,000. This is to provide free Internet service 
for the disadvantaged schools in my District. It will be a G-
rated service.
    It will bridge the Digital Divide, and I cannot think of a 
better way to invest $100,000 than to provide students with 
access to the entire world through the Internet.
    The other projects I have are so important that none of 
them are actually in my District, but they have regional 
importance, and therefore even their effect on my District is 
worthy of bringing to your attention.
    The first is the Community Court Pilot Program, which will 
be a pilot program to deal with certain infractions and 
misdemeanors like graffiti, public drinking, vandalism, that 
clog our regular court system.
    This would be a pilot project to move these to a separate 
court to make sure that those who engage in these minor crimes 
get some attention so that they don't go on to more severe 
crimes, but at the same time, you are not clogging up main 
court system.
    I would hope that $1 million could be provided from the 
COPS technology account.
    Joining me in that is Congressman Berman who cannot be here 
right now and who sent a letter of support.
    Mr. Sherman. The third is the Ventura County Integrated 
Justice System which would take place primarily in Elton 
Gallagy's district and he lists it as his first priority in the 
letter he submitted to the Subcommittee.
    This is a data management and data standardization program. 
The committee--the conference committee's report recommended 
this in Fiscal Year 2001 for funding of $2 million and for $1 
million the prior year.
    An additional $3 million is needed to complete the program 
and we hope to get that funding as well.
    Ventura County is affected like many counties that used to 
get helicopters for free from the federal government; now they 
have to pay for them since the supply of aging helicopters from 
the military has pretty much run its course and Ventura County 
requests $6 million. Again, this is primarily not in my 
district.
    Then, finally, the City of Los Angeles is seeking $2 
million. This would affect the entire city. I think we will 
have support from other members of the Los Angeles delegation 
for an alternative to dialing 9-1-1.
    That is, to dial 3-1-1 when it is a non-emergency need to 
deal with public safety departments. Over 80 percent of the 
calls to 9-1-1 are not, in fact, emergencies. If we can widely 
publicize and set up a 3-1-1 system by receiving $2 million 
from the COPS technology account, we can answer the 9-1-1 calls 
with a lot less wait time. That is it.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.016
    
    [GRAPHIC] [TIFF OMITTED] T3378A.017
    
    [GRAPHIC] [TIFF OMITTED] T3378A.018
    
    [GRAPHIC] [TIFF OMITTED] T3378A.019
    
    Mr. Serrano. Well, we thank you for your presentation. 
Again, some of the requests you have made come out of the part 
of the budget that will have, as you know, a lot of debate, in 
committee and otherwise with the Senate, to try to fix, in my 
opinion, some of the numbers. But that is the problem.
    However, your record is clear on these items and you have 
been supportive of them not only today but in the past, and I 
am sure that we will try to do what we can.
    Especially, I have great interest in your Internet program, 
because that is something that is really needed in this 
country, so I thank you for your presentation and your concern.
    Mr. Sherman. Thank you, and, even with a tight budget, I 
hope $100,000 is available for that program.
    Mr. Serrano. Thank you.
                              ----------                             


                                WITNESS

HON. THOMAS ALLEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF MAINE
    Mr. Allen.
    Mr. Allen. Thank you, Mr. Serrano.
    Mr. Serrano. The Chairman is away for a little while. There 
is nothing--we did not have a recount. [Laughter.]
    Mr. Allen. Well, I thank the Chairman in absentia and you, 
Mr. Serrano, and the Committee for holding this hearing on 
funding needs for the Commerce, State, Justice Appropriations 
Bill for the Fiscal Year 2002.
    I have submitted a letter outlining the funding priorities 
that are most critical in addressing Maine's needs. But today I 
would like, along with my fellow Co-Chairs of the House Oceans 
Caucus to speak about the importance of funding for oceans 
research.
    I represent a district which relies heavily on its marine 
resources. We have historically depended on the Gulf of Maine 
for purposes ranging from transportation and fisheries to 
tourism and recreation.
    But the oceans are important not only to coastal districts, 
they are critical to the economy, security, and health of the 
entire nation.
    For this reason, we must provide the necessary funding to 
create the infrastructure and perform the research that will 
increase our ability to better understand, utilize, and protect 
the marine environment.
    My understanding is you have already heard testimony from 
two of the Co-Chairs of the House Oceans Caucus stressing----
    Mr. Serrano. [Nods in the negative.]
    Mr. Allen. Not yet? Well they will be here, I trust.
    Mr. Allen [continuing]. Stressing the importance of your 
support of NOAA's programs.
    For my part, I would like to explain the benefits that will 
be realized through the funding dedicated to ocean-observing 
programs and coastal-zone management.
    NOAA's strategic plan includes such goals as:
    Sustain healthy coasts;
    Build sustainable fisheries; and
    Predict and assess decadal to centennial climate change.
    NOAA's scientists and managers are the stewards of our 
marine environment, and yet they often do not have the 
necessary information to guide them in their decisionmaking.
    Continued investment for oceans observations will allow 
scientists to understand the long- and short-term trends 
occurring in the world's oceans and atmosphere. That, in turn, 
will lead to improved weather and climate forecasts, improved 
natural-resources management, and a better understanding of the 
sources and fates of marine pollution.
    I ask that you support the request for $5 million for ocean 
observations and $7.3 million to implement and maintain a 
global ocean-observing system for improved climate services.
    We need to have the data to understand all the various 
kinds of information from currents right up and down the water 
column. We need to understand what is going on out in the 
oceans. And compared to what we know about the air, the weather 
in the air, we are a long way from understanding all we need to 
do.
    That is why ocean-observing systems are so important. The 
National Ocean Research Leadership Council, consisting of the 
leadership of the Navy, NOAA, NASA, and NSF, has called for the 
full implementation of an integrated, sustained ocean-observing 
system by 2010.
    NOAA's effort is closely coupled to other U.S. and 
international observing programs. The integration of all these 
agencies will improve user access to ocean knowledge, data, and 
tools.
    I also ask for your support for an increase in funding for 
both coastal-zone management administration and the coastal-
zone management grants.
    The Coastal Zone Management Program is a federal/state 
partnership that works to ensure the wise use of coastal 
resources. It promotes both economic development and natural-
resource protection.
    The coastal communities of the United States currently face 
unprecedented development pressures. Coastal areas have proved 
so attractive that over half the nation's total population 
currently lives along the coast.
    The CZM Program allows coastal states and communities to 
obtain grants to address such problems as the impact of coastal 
storms and flooding, declining water quality, public access to 
the shoreline, loss of wetlands, and deteriorating waterfronts 
and harbors.
    This program is crucial in helping states balance the 
competing economic demands of coastal tourism, commercial and 
recreational fishing, and the marine transportation system with 
the goal of a healthy and vibrant coastline.
    The total request for CZM administration is $6.4 million. 
The total request for coastal-zone management grants is $69 
million.
    This investment is necessary for states to fully implement 
and improve their federally-approved coastal-management 
programs. Combined, these programs serve to manage and protect 
99.9 percent of the nation's shoreline.
    CZM grants are matched by states and used to leverage 
additional private and public resources. The state management 
plans are an effective mechanism for states to address the 
threats posed by an explosion in population on the nation's 
coasts and the pollution resulting from new growth.
    And let me say, of all the different programs I have seen, 
the CZM Programs are among the best at marrying--putting 
together--but, not just the state government and the federal 
government but also really integrating private parties, other 
organizations into effective local management of our resources 
along the coast.
    I want to thank you, Mr. Serrano, and the Chairman for 
allowing us to testify today and I hope you will consider this 
testimony in conjunction with the testimony of my other three 
Co-Chairs of the House Oceans Caucus.
    Mr. Weldon has already arrived. I just hope that this 
Committee will understand how much we gain from our coasts and 
oceans, and how important it is to set aside the resources 
necessary to protect them.
    Thank you very much.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.020
    
    [GRAPHIC] [TIFF OMITTED] T3378A.021
    
    [GRAPHIC] [TIFF OMITTED] T3378A.022
    
    Mr. Serrano. Well, we thank you for your testimony. I know 
of your work in this area and certainly am looking forward to 
the testimony of the other members of the Caucus.
    We will do what we can. In anticipation of the other 
members, also, let me just ask staff. Some of the things that 
Mr. Allen has mentioned would require additional dollars to 
NOAA or shifting of dollars to NOAA?
    Ms. Del Balzo. I think that what you are requesting is 
equal to the President's request in most instances, and they 
reflect the increases that were given last year.
    Mr. Allen. So I hope that is relatively supportive of the 
President's budget.
    Mr. Serrano. In this one area.
    Ms. Del Balzo. You are well within the President's budget.
    Mr. Serrano. We thank you for your testimony.
    Mr. Allen. Thank you very much.
                              ----------                              


                                WITNESS

HON. CURT WELDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Serrano. Mr. Weldon.
    Mr. Weldon. Thank you, Mr. Serrano, and members of the 
staff who are here, I want to build on what Tom said.
    For the past 15 years that I have served in Congress, I 
have seen a lot of contentious environmental issues that split 
Democrats and Republicans and Conservatives and Moderates and 
Liberals, but if there is one environmental area where everyone 
can agree it is on the need to protect the oceans. It is a 
unifier.
    To that end, we have worked in a bipartisan way to bring 
Members of Congress together for a national ocean strategy to 
develop a comprehensive plan to deal with ocean problems and 
issues, partly because the oversight jurisdiction for ocean 
issues in the Congress is actually shared by over 20 
Subcommittees. It is extensive. It is broad.
    Now four years ago Patrick Kennedy and I introduced and had 
passed in the House and the Senate the National Oceans 
Partnership Program. That was then signed into law by President 
Clinton.
    That bill, or that law now forced the nine federal agencies 
that oversee various aspects of ocean jurisdiction to work 
together and to develop unified projects and coordinate 
efforts. It has worked very well.
    The unusual part of that was that the largest funder of 
ocean research and ocean efforts in America has been the U.S. 
Navy. So the Navy was given the lead in the National Oceans 
Partnership Program.
    Unfortunately, NOAA has not been given the kind of 
leadership role that many of us feel it should have. Even 
though I am a strong supporter of the military, and as the 
Chairman of the R&D Subcommittee for the past six years I made 
sure that each year I put extra funds in the Defensebudget in 
the area of research and development to support Navy research 
activities that could be shared with other nations--in fact, we ran 
multinational conferences in this country. Twice we brought in 
delegates from 35 countries, 200 delegates.
    I had Vice President Gore speak and Speaker Gingrich speak 
the same day on the need for a better coordination of ocean-
response activities.
    What we are now trying to do is provide an additional focus 
on an oceans agenda. As you probably are aware, there was the 
creation of an Oceans Commission. There has been supporting 
work done by the Pew Foundation.
    What we are asking for is the full funding to allow that 
Oceans Commission to move forward and to become a viable part 
of the leadership from the Administration's standpoint in terms 
of where we are going.
    In addition, I want to put a special request in for a 
heightening of the awareness of the issue of non-point-source 
pollution, which is a major problem around the world and a 
special problem here in our country.
    But overall, in general what I would ask the Subcommittee 
to do--and this is a very important Subcommittee--is to 
reinvigorate the leadership of the non-Defense agencies in the 
ocean agenda.
    There are many things we could do together. You will find 
strong bipartisan support in the Congress. This is one issue 
and one area where all of us in fact have a common approach and 
have a common understanding of what needs to be done.
    I want to put one other special pitch in for a program that 
is not in my testimony. I have been a strong supporter of an 
initiative actually started by Vice President Gore called the 
Medea Project.
    The Medea Project brings together, largely with 
intelligence funds, scores of our top academic researchers in 
America who have been given access over the past six years to 
Defense classified systems so we could use those Defense 
systems to better deal with environmental problems.
    One of the specific projects coming out of the Medea 
program is a project called Hazard Support System. This 
project, if I could take a minute and digress, takes Defense 
satellites, which are classified, and uses imagery which was 
originally and currently used to detect rocket launches around 
the world by the heat given off from the rocket to be used to 
detect wildlands and forest fires.
    So that in the West, in the far West, the Midwest where we 
have a terrible problem with wildlands fires and forest fires, 
and in the end do not respond to them until they are well out 
of control, using Defense technology we can put into place a 
mechanism to have the response much quicker to local emergency 
responders who can then control those fires before they become 
massive cost-drivers in our budget.
    We have had to add billions of dollars a year into the 
funding streams to pay for the results of forest fires in 
America. Billions of dollars. You know the supplementals we 
have had to pass. This program is designed to prevent that from 
happening.
    Now unfortunately the funding for that has been impossible. 
Right now, NOAA, who has just been given total authority over 
this multi-agency program, is funding it on a shoestring and it 
could in fact fold or go away.
    There is a need for what they claim to be $20 million to 
get this program completely integrated into our domestic 
emergency response network. It will benefit every state, 
especially, Sam, states like yours where they have a terrible 
problem with forest and wilderness fires and wildlands fires.
    So I want to put a special pitch in to the Subcommittee, 
even though it is not a part of my testimony, and ask you to 
consider supporting that program and not letting it fall by the 
wayside.
    It will be a terrible tragedy to lose the good work being 
done coming out of the Medea Project putting into place this 
special program dealing with forest and wildlands fires in 
America.
    So, Mr. Vice Chairman, I thank you for listening to me, and 
the staff of the Chairman I thank you also, and give my best to 
Frank. He is a good man, as are you.
    Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.023
    
    [GRAPHIC] [TIFF OMITTED] T3378A.024
    
    [GRAPHIC] [TIFF OMITTED] T3378A.025
    
    Mr. Serrano. We thank you for your testimony and for your 
interest in this area. I am told that NOAA is doing some work 
in the area you mentioned, not to the degree you would like, 
but certainly the lobbying effort on behalf of the focus group 
will probably be felt very soon, and I thank you for your 
testimony.
    Mr. Weldon. My pleasure.
    It is all yours.
                              ----------                              


                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Serrano. Mr. Farr, welcome.
    Mr. Farr. Thank you very much, Mr. Chairman-today.
    Mr. Serrano. This is just--He is out of the room. Don't get 
excited. There was no recount overnight or anything of that 
nature. [Laughter.]
    Mr. Farr. I thank you for allowing me this opportunity. I 
am one of the four Co-Chairs of the Ocean Caucus and I just 
think that what people forget in this country is that the 
United States is really like an island.
    We are surrounded by water on three sides, and, if you 
count how much water is in the Great Lakes on four sides, the 
economy of America, both historically and still today, is 
ocean-dependent.
    Most of the population of the United States lives along the 
coastline, whether it is in your State of New York or our State 
of California, Florida, or Texas, or any of those big-
population states. The majority of the populations of those 
states lives in the coastal zone.
    So this Committee, with its responsibility for NOAA, has 
some tremendous opportunities, one of which relates to your 
foreign side of it.
    That is that, with the exclusive economic zone of America, 
it includes 1.7 times the territorial land mass of the United 
States. We find that, if you look at the jobs in the United 
States that are marine-related, if you look at the Gross 
Domestic Product, where it is produced, it is in the coastal 
zone.
    So it is really kind of, if you look at America, it is the 
economic engine of this great country and what we are doing in 
that zone is really interesting and exciting and a new 
frontier.
    One of the areas that I am very interested in is the Marine 
Sanctuary Program. Thirteen of those have been created by 
Congress. They essentially are kind of like national parks in 
the ocean but they have not got quite the national-park status 
because each one is designed separately, but they are 
equivalent to that and they have been founded because of their 
unique ecological or their unique historical heritage.
    What we do is we manage them, and we do not have a huge 
budget for that but this Administration recognizes the 
importance of these sanctuaries and has appropriated $52 
million for it.
    Sixteen-million dollars is for new construction to help 
innovative new interpretive centers. Interpretive centers are--
I am in an area that has decided that its future is going to be 
about interpreting the ocean as an economic strategy.
    We have all these marine-related schools, and I hope the 
Committee can come out and see them sometime in the Monterey 
Bay area. But what is interesting with the public coming there 
is, as you look out at the ocean and you only have one 
dimension. It is that flat surface.
    And so, unless you have scuba capabilities of getting in 
there, you really do not, from land-side, are not able to look 
into the ocean like you are able to look into space.
    So we have got to have some interpretive centers to do 
that. The interpretation, then, opens up the ``what-ifs,'' the 
possibilities.
    Let me just give you an example I heard over the weekend. 
We have a community college that said, okay, if this is going 
to be an economic asset, let's start training people at the 
community-college level--high-school kids who come to the 
community college--and teach them the marine sciences. Not so 
much marine biology--whales and stuff like that--let's teach 
them about how they can be mechanics in the ocean.
    So they have a course in driving remote-operated vehicles 
that are under water. The companies are coming and recruiting 
kids out of the class--they do not even want them to graduate--
and offering them $45,000 a year in their first year, and 
offering them after two years with a company, an $80,000-a-year 
job.
    This is high-school graduates with a little extra training. 
So there is an incredible market out there, and it is all about 
how do you interpret these oceans. So it is an area that I 
think deserves strong support.
    The other thing that has come out of our sort of conflicts 
of the sea are the need to have some marine-protected zones. 
The former Administration created them. It is funded for the 
first time in this budget. It recognizes that we need to have 
some protected areas as a management tool.
    Fishery folks will tell you that if you can go in and 
protect sort of the critical mass and have the fishery stock 
recovered by not bombing it with essentially fishing the whole 
time--I do not mean literally bombing but you know just 
pounding it--we have so much technology now, most of it 
developed frankly with our ability to do environmental 
monitoring, we are an environment under the ocean and we can 
tell you exactly where the fish are and what kind they are.
    You do not have to go out there and have these fish-finders 
anymore. We know from the environment that that kind of fish 
lives there and they can go right there and just, you know, 
essentially, catch everything.
    So we are going to need the ability to protect those areas. 
We have $3 million in the program, which is very little money. 
It is just to inventory where the areas are.
    And after we inventory them, we are going to know where 
they are and then comes the issues about how you are going to 
manage them and do cross-regional and jurisdictional 
boundaries. But I think frankly we need to just go out and at 
least know where these assets are, where these critical 
habitats for our commercial fisheries exist.
    Finally, I would like to have this Committee know how 
important your wet side of the NOAA budget is; that NOAA is not 
only the atmosphere but it is the ocean. And that if we are 
going to solve some of these problems in society, my belief is 
that as we get into the more humane treatment of animals, and 
we cannot find species in which to do a biological study on it, 
we are going to be moving more and more to marine organisms.
    We have used marine organisms a lot in fertility issues, 
sea urchins and things like that and discovered--I mean our 
science is really moving into the sea. And the reason that our 
science is moving there is that the sea is so much older than 
the land. Everything essentially came from the ocean, so the 
environment there is one that has co-existed longer than 
terrestrial beings have existed.
    And the enzymes and the sophistication of marine organisms 
in many ways for our medical science purposes is more 
sophisticated than that we have known on land. So it is in an 
area that, if we look at it, we keep thinking about we are 
going to go to Space to find the answers but most of the ocean 
is not--looking at that vast map, 70 percent of the ocean has 
been uncharted. We know nothing about what is out there. We 
know more about the back side of the Moon and Mars than we know 
about our own Planet.
    And since we are a water planet, that is why we formed this 
Caucus on the Oceans to try to bring a bipartisan approach to 
what essentially is happening out there, both what we ought to 
be doing from a good sound management and also what we are 
doing that is just pounding the ocean and destroying sort of 
the seed corn of our feed supply in our ocean marine mammals.
    Your committee and the way you appropriate money and the 
emphasis you put on it is critical to whether we move into the 
future smartly or whether we just do it same old/same old. So I 
really appreciate the consideration that you will give to these 
programs in NOAA and I join with my other colleagues in 
thanking you for allowing us to have this time here before your 
committee. I know my other co-chair is not here yet.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.026
    
    [GRAPHIC] [TIFF OMITTED] T3378A.027
    
    Mr. Serrano. Well I thank you for your testimony on behalf 
of Chairman Wolf. We thank you, and I certainly know that on 
the issues of NOAA and the oceans, and fisheries, you speak 
like no one else, and we commend you for that and we thank you.
    We know as we put together this budget your thoughts will 
play a role and be heard in this discussion.
    Mr. Farr. Well don't just talk about it; come out and see 
it. We will give you a really great opportunity to see some 
really exciting stuff.
    Mr. Serrano. Thank you.
    Mr. Farr. Thank you.
                              ----------                              


                                WITNESS

HON. WILLIAM PASCRELL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Serrano. Mr. Pascrell, you are next. We welcome you.
    Mr. Pascrell. Good morning.
    Mr. Serrano. Good morning.
    Mr. Pascrell. And to our Chairman, not here at this moment, 
I want to thank you for allowing me this opportunity.
    There are two issues I would like to bring to your 
attention what I think would bring relief to a great number of 
citizens in my area and would have a very positive impact on 
the State of New Jersey.
    The first issue, Mr. Chairman, is I would like to discuss 
the urgent need for an Immigration andNaturalization Service 
satellite office in Patterson, New Jersey.
    For all of the reasons you are very familiar with, this has 
been a disaster getting worse all across America. Out of one 
side of our mouth we tell folks that come here to become 
citizens, to become part of the process, to become documented. 
Out of the other side of our mouth we are saying this is how 
long you are going to have to wait, and I am sorry because this 
is the bureaucracy.
    So we defeat our objectives. And one has to question what 
our objectives are, really, after we see that we have not 
really facilitated what we said we would.
    Presently local INS offices in Newark, New Jersey is a 
large office that is backlogged by a high number of 
applications that need to be processed. There is entirely too 
much work for the Newark office to reasonably handle.
    We are now getting in our Congressional office--and you 
probably get the same situation in your office, Congressman--
they go to the main office. They have got to wait on line. Go 
to your Congressman. And that is what is happening.
    I am not exaggerating. If anything, I am underplaying it. 
The INS is a primary agency charged with enforcing the Nation's 
Immigration laws. Regulating Immigration can be viewed as 
having two basic components. enforcement, and facilitating 
legal immigration or service.
    But as thousands have seen, the service side of the 
immigration equation is woefully inadequate. ``INS'' stands for 
service? I don't know. I know it stands for ``slow'' because I 
have gotten on the lines at 5:30 in the morning in Newark to 
see for myself, a few times; 150 to 200 people waiting to get 
in to begin the process to become part of the greatest 
democracy in the world. Again, we talk out of both sides of our 
mouths.
    This happens throughout the year, from scalding humidity in 
the summer to blistering cold in the winter. People want to be 
American citizens. They want to become part of the process, and 
they are plagued with treatment that we would not want our 
household pets to endure.
    No procedure has been set up to allow applicants to easily 
walk in and receive the needed paperwork or service. So they go 
to the Congressional office many times, and we welcome them. 
Our caseloads have increased dramatically in not only the 
cities--Congressman, Mr. Chairman, it is important that every 
Member of this Committee understand that Immigration has no 
demographic limits any longer, no geographical limits any 
longer.
    To my west in my District is Rodney Frelinghuysen, my good 
friend from the opposite side of the political spectrum. 
Immigrants move anywhere right now, and his office is inundated 
as well.
    We need a satellite office. It is taking 16 to 18 months 
for a naturalization to take place. Fingerprints expire in a 
year. What happens? They have got to go back and do the 
fingerprints all over again.
    There are not nearly enough officers in the INS working the 
lines in Newark--and I have seen that happen in other states, 
in other main offices. They simply cannot deal with 400, 450 
people that go through the information line every day.
    We have handled literally thousands of immigration cases in 
our Congressional office. Mr. Chairman, the Congressional 
office was never ever, ever intended to be a satellite of the 
INS. It is. And the INS love us for that, because we reduce the 
burden and their responsibilities.
    Our offices have to deal with other things, as well. We 
have to deal with Social Security. We have to deal with the 
veterans. We have to deal with Medicare and Medicaid problems. 
Veterans alone consume a tremendous part of our day. We need to 
respond to more than our veterans. I cannot think of anybody 
else.
    An INS satellite office in Patterson will not just be good 
for Patterson, but obviously for the many communities which 
surround us.
    The INS should be a service that helps them assimilate into 
American society and not a complicated machine that takes more 
than it gives. And that is what is happening right now.
    If I could briefly conclude on this first point, my meeting 
with the INS last year under an Administration that looks like 
me was the most disappointing experience I have had since I am 
in the Congress.
    I think the person who sat across from me, the Director at 
that time, looked like a deer lost in the woods in Sussex 
County. I do not think we connected, and I think there is a 
serious problem here which we are not addressing.
    The second issue is Trade Adjustment Assistance, the Trade 
Adjustment Assistance for Firms Program administered by the 
Department of Commerce. It has been incredibly successful in 
the State of New Jersey.
    John Walsh, who is Director of New Jersey TAA for Firms 
Program has done wonders on less than what I think is an 
adequate budget. There is much to be done. Level funding for 
this program is really unacceptable.
    This helps those folks that have been impacted by NAFTA and 
GATT. It highlights the demand of the firms for public 
assistance. Such interest is understandable in view of the 
program's positive results. It has worked.
    We have a program--it came out of the Congress--that works 
and tries to help those firms that are negatively impacted by 
NAFTA and GATT.
    I ask that we look at this, Mr. Chairman, and that you 
respond in kind, and I am honored to be here today.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.028
    
    [GRAPHIC] [TIFF OMITTED] T3378A.029
    
    [GRAPHIC] [TIFF OMITTED] T3378A.030
    
    Mr. Serrano. Well I thank you. I certainly understand well 
the issue of the satellite office in Patterson. It is the 
number one issue in my Congressional District on any given day. 
There are lines around the office building. And you are right. 
We are doing the work that INS should do. And you are right 
that some of those folks look like they are totally lost.
    And the whole idea of INS trying to help people stay in 
this country seems to be a contradiction to the way they 
behave.
    The Administration has not named a new Director for the 
INS, and it is probably the one area where I will not yell and 
scream that they should hurry because whoever they get for that 
job has to have some understanding of what to do.
    Mr. Pascrell. Right.
    Mr. Serrano. And who wants it. I certainly do not want it. 
But anyway, we thank you. We hear you loud and clear. It is one 
that I join you on because we need to do something, and we will 
try to help you in every way that we can, personally and in 
general.
    Mr. Pascrell. Thank you, Mr. Chairman. I appreciate that. 
And please convey my thanks to Chairman Wolf. I would 
appreciate that, also.
    Thank you.
    Mr. Serrano. Thank you.
                              ----------                              


                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
    Mr. Serrano. Mr. Roemer is next and we welcome you.
    Mr. Roemer. Good morning. Thank you very much. I ask 
unanimous consent that my entire statement be entered into the 
record.
    Thank you, Mr. Serrano. I appreciate the opportunity to be 
here both with you and the distinguished Chairman, Mr. Wolf. I 
will be very brief. I appreciate your time. I realize that you 
are going to have many witnesses, so I will as succinct as 
possible.
    I have four very important requests for my constituents 
dealing with education, with environmental safety, with police 
security and citizens rights, and with public diplomacy.
    The first is a $10 million request for an Accelerated 
Learning Academy to be operated in my home County of St. Joseph 
County.
    We have a number of students in trouble that are now being 
kicked out of school and going into a Juvenile Justice Center 
without school. They are in there sometimes six, nine, ten 
months and without school they then get behind and then they 
are delayed and more likely to drop out of school.
    We want to combine a brand-new creative approach to have a 
school within this Juvenile Justice Center, and not let these 
kids fall behind, and have a very, very disciplined and 
rigorous learning program so that these children stay in 
school, do not drop behind, and then when they get out of the 
Justice Center they can go back into the public school system.
    This is a very innovative program and we would appreciate 
your full funding of that request.
    Secondly, a $2 million request for an environmental risk 
assessment done with the University of Notre Dame and NOAA. It 
would be to conduct environmental risk assessments for new 
industrial solvents that are likely to contaminate the Great 
Lakes Watershed and other U.S. coastal--U.S. environments.
    I know my friend, Bud Stupak, is here who has great concern 
about the safety and reliability of the drinking water of the 
Great Lakes. They hold 90 percent of the surface fresh water in 
the U.S. and supply 40 million people with drinking water. We 
want to make sure that stays safe.
    The third request is for $500,000 in Justice Department 
funds to install video cameras in patrol cars. Back in my 
District, we have allegations of police brutality that have 
stirred some very, very significant controversy particularly 
within the African American and the Hispanic communities. My 
Hispanic Advisory Committee has made this one of the highest 
priorities where we have already put about 50 cameras into 
police cars with local funds and state funds and some 
Department of Justice block grants. We want to use this 
$500,000 appropriation to put 130 more in.
    That will continue to protect the integrity of the police 
force and protect the rights of suspects.
    Lastly, a $400,000 request for the U.S. Advisory Commission 
on Public Diplomacy. I testified before on this. You have been 
very helpful, Mr. Serrano, and I would appreciate you and the 
entire Committee's help on all four requests.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.031
    
    [GRAPHIC] [TIFF OMITTED] T3378A.032
    
    [GRAPHIC] [TIFF OMITTED] T3378A.033
    
    [GRAPHIC] [TIFF OMITTED] T3378A.034
    
    Mr. Serrano. First of all we thank you for your testimony. 
We do not seem to have it, if you could submit it for the 
record.
    Mr. Roemer. You do not have which one?
    Mr. Serrano. Your testimony.
    Mr. Roemer. The testimony? Okay, we will get the testimony 
to you.
    Mr. Serrano. Okay. And we know certainly of your concerns 
for many of these issues, and you have brought these to us in 
the past.
    We have been helpful at times, and hopefully the Committee 
will be able to help you again. On behalf of Chairman Wolf, we 
thank you for your testimony.
    Mr. Roemer. Thank you, very much.
                              ----------                                



                                WITNESS

HON. SILVESTRE REYES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Serrano. Mr. Reyes, welcome.
    Mr. Reyes. Thank you.
    Thank you, very much. I too would like to address a number 
of issues, and I want to thank you, my good colleague, and I 
hope that this year I will be able to get several cards like 
some of my colleagues have in the past.
    We are counting on you for transportation, and now for this 
very important issue. So I appreciate that, and I hope you 
would pass that on to the Chairman----
    Mr. Serrano. Keep trying.
    Mr. Reyes. I will never stop trying.
    Mr. Serrano. Right.
    Mr. Reyes. There are a couple of issues that I want to 
address today, so I want to couch this in good news/bad news.
    The good news is that the President's budget finally has 
proposed an appropriation of $50 million to aid counties along 
the Southwest Border with a cost of detaining and prosecuting 
drug cases referred to them by U.S. attorneys.
    This is a much-needed appropriation that I strongly 
support.
    However, the bad news is that the budget proposes to 
drastically cut the State Criminal Alien Assistance Program, 
better known as SCAAP.
    As you know, this program provides partial reimbursement to 
state and local governments for the cost of incarcerating 
undocumented aliens.
    In 1999 the 24 counties along the U.S.-Mexico Border spent 
almost $110 million for costs associated with these services, 
but this is of course not just a Border issue. In Fiscal Year 
2000 all 50 States, the District of Columbia, Puerto Rico, and 
359 local governments received SCAAP funding, which of course 
included Virginia.
    In fact, for the Chairman's information the Commonwealth of 
Virginia received more than $3 million. Fairfax County received 
more than $2 million, and Prince William County received more 
than $500,000.
    During Fiscal Year 2000, the New York SCAAP Program, which 
is vitally important again to all of us, received over $111 
million.
    So we see that this is a program that is important to this 
whole country. Yet, in his budget President Bush has proposed 
to slash funding for SCAAP from its current level of $565 
million to $266 million, a reduction of $299 million.
    This would be a devastating issue not only to the Border 
but to the rest of the Nation. So I urge that you do all you 
can to help us fully fund this very important program. In fact, 
for those of us that follow football, it is the equivalent of 
picking up five yards on first down and then getting thrown for 
a twenty-yard loss on second down, which leaves you with third 
and fifteen, which makes you 99 percent of the time have to 
punt on fourth down, which leaves you playing defense.
    The Border communities have been playing defense for 
decades and we need your strong advocacy and support in this 
very important program.
    In addition, the Western District of the U.S. Marshalls 
Service is currently reporting an immeasurable and inoperable 
workload level with increases of 78 percent of their prisoner 
population.
    While their workload and prisoner population continues to 
grow, the Marshalls' request for adequate staffing have gone 
largely unheeded and unheard. I have personally discovered that 
the Western District has had a net gain of only 15 new Deputy 
Marshalls since Fiscal Year 2000, which even more alarming is 
the fact that Federal Courts in El Paso handled over 1600 
criminal cases in 1998 and over 1900 this past year in 2000.
    The over-sized workload for federal and state law 
enforcement agencies along the U.S.-Mexico Border has become so 
apparent and so dangerous for agents who protect the Border and 
the citizens who live around El Paso and other Southwest Border 
Regions, yet we have seen little or no relief in sight.
    Since 1994, several government law enforcement agencies 
have received increases in personnel and facilities. The U.S. 
Marshalls Service, however, has only seen growth in its annual 
workload and a standstill in its annual appropriations, a very 
serious situation for those officers.
    My colleague and, Mr. Chairman, Members of the Committee, 
working for the Southwest Border is a task that requires 
determination, diligence, and pride in service.
    The men and women who protect and serve El Paso and the 
U.S.-Mexico Border work hard to ensure the safety of citizens 
living in this unique community, and it is this uniqueness that 
requires the attention and the assistance of the Subcommittee.
    As a former Border Patrol Chief who worked in various areas 
along the Southwest Border--and, I might add, never had any 
responsibility for naturalization of citizens, but in complete 
agreement that most of the caseload dealing with INS, as my 
colleague stated previously, deals with the naturalization 
process.
    To give you a sense of comparison, I am going to start 
urging some of those that complain to our office to go to 
Newark because in El Paso and in the Southwest, the delays are 
averaging between 24 and 32 months to become a citizen. So that 
is certainly something that I would endorse and something that 
I think is important for us as a Congress to look into.
    I know all of these issues from a first-hand perspective, 
and I ask you to support, recognize, and respect the sacrifices 
that are being made by those who face these challenges on a 
daily basis and provide them with the resources necessary to 
further perform their duties.
    I want to again thank you for the opportunity to be here, 
you as well as Chairman Wolf, and want to lastly tell you that 
I have got a complete statement for the record that I wish to 
include.
    So, with that, I thank you very much for this opportunity 
and again hope in the very near future to receive a number of 
cards from you. And of course, Mr. Chairman, this is something 
that is unique to our Hispanic Caucus but something very 
important we have to connect here.
    So, I thank you for this opportunity and look forward to 
working with you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.035
    
    [GRAPHIC] [TIFF OMITTED] T3378A.036
    
    [GRAPHIC] [TIFF OMITTED] T3378A.037
    
    Mr. Wolf [presiding]. Sure. Thank you, very much.
    Mr. Serrano.
    Mr. Serrano. We thank you for your testimony. Certainly I 
am in agreement with you that I was somewhat surprised by the 
cut in the assistance to the states. For some reason, I thought 
that would be something this Administration would like.
    But I understand there are budget problems presented by 
other issues that are too much to bring up here but I thank you 
for your testimony, and I would like very quickly and carefully 
to turn, of course, the gavel over again to the Chairman so 
that I can stay out of trouble.
    I promised $3 billion to $5 billion while you were gone. 
[Laughter.]
    Mr. Wolf. Well I will stand behind you, whatever you did.
    Mr. Miller.
    Mr. Miller. No, thank you. No questions.
    Mr. Wolf. Thank you, very much.
    Mr. Reyes. Thank you very much, Mr. Chairman.
                              ----------                             


                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Wolf. Mr. Stupak.
    Mr. Stupak. Mr. Reyes said he had you guys all set up for 
me, but I think he took all the money.
    Mr. Serrano. That is okay. Everything I promised does not 
count. [Laughter.]
    Mr. Stupak. Well thank you, and thank you for the 
opportunity to testify.
    I will summarize my statement, but I ask that my full 
statement be made part of the record, and hopefully my voice 
holds up here.
    Mr. Chairman, Mr. Miller, and Mr. Serrano, first I would 
like that the Committee consider putting back the money in the 
Universal Hiring Program for the COPS Program. This program is 
basically eliminated underneath the President's budget.
    Last year, the Committee had cut way back on the Universal 
Hiring Program. There was $147 million. So I would ask that we 
at least fund that part of it.
    For the grants to hire these people, you give much 
flexibility to locals. We already have three times more 
requests than even the $147 million we had last year. It is 
wildly popular with local law enforcement throughout the 
nation.
    So I would ask that we restore at least the universal 
hiring aspect of it. I know they have been shifted to the 
School Resource Officers, but I would think that the local 
community should make that decision whether they want a School 
Resource Officer or another police officer who isgoing to be 
assigned to schools. Let them make that discretion.
    I understand what the President is trying to do, but I 
would ask that the Universal Hiring Program be put back in 
there.
    Also, the Universal Hiring Program in the President's 
budget restructure is also a COPS MORE Program, which was to 
provide funding to local communities again for new technology 
and additional civilian personnel.
    A lot of those grants were just issued last year. And while 
the communities were knowing that it was going to be a three-
year program, they would be funded year by year. After one year 
with the restructuring in the budget, the money is not there 
for COPS MORE for the second and third year out.
    So I would hope that the Committee would at least look at 
some way of honoring those commitments we have out there.
    Now if you read the fine print of these contracts, it said 
it is a year-by-year funding, but we are looking at three 
years. They did one year, which we did last year, but we still 
have got the second and third years, at least for those grants 
that were given underneath the COPS MORE, especially for the 
civilian people and the technology, that they be honored.
    So, that is on the COPS Program. As you know, I have been a 
believer of that program ever since it got here. And again I 
thought it provided great flexibility and would like to leave 
it there.
    I would like to mention one underneath technology, the 
Charlevoix-Cheboygan-Emmet Central Dispatch Authority. This is 
probably--I have 28 counties. This one dispatch of these three 
counties is probably the leading ones that have put forth their 
resources and developed a very good, cohesive dispatch 
authority 9-1-1 emergency services. But they fund everything. I 
mean, excuse me, they provide services for everybody from the 
state police on down the line. State police has gone through 
the state of Michigan and redone their whole radio 
communication networks. These folks up here have to redo their 
local community emergency services technology. They need $1 
million just to upgrade their dispatching and keeping the 
software around. Again, they do it for, like, 28 different 
units. They all go through this three-county dispatch 
authority. It is one of the best ones there are. So, I would 
ask you to give serious consideration for an earmark for this 
one program.
    Just a brief word on the Thin Blue Line of Michigan. This 
is a bunch of volunteers of law enforcement officers, 
attorneys, accountants. When a tragedy strikes a law 
enforcement officer, they go out and they try to help them. 
Most people do not understand what other benefits may or may 
not be available to the family after a tragedy strikes. This 
group goes out. They are asking for just $20,000, and it is not 
for any pay or anything, just to try to offset the cost--out-
of-pocket cost. They go through all of Michigan, whether they 
are state police, local police, emergency services, personnel. 
They go all over and help these people. It is a small amount. 
We tried to go through the Byrne Grants in Michigan to get the 
money to try to help these folks out. But, without some kind of 
an earmark or consideration from this Committee, I do not think 
we can get the state to start moving some money that way, also. 
Again, they are not asking for pay. They are just saying, look, 
we just need to try to offset some of our expenses.
    Regional Community Policing Institute, Center for Civil 
Force, the National Night Out underneath the Byrne Grants, I 
mentioned in my testimony. I will not take any more time on 
them right now.
    I would like to go with the State Department's programs, 
the six Maritime Academies. As you all know, we have six of 
them throughout--academies throughout the United States, the 
vital functions they perform in educating maritime 
professionals. In the Great Lakes, there is only one, and that 
is the one in Michigan. I am sure, like our academy, like the 
rest of the academies, there is 100-percent employment for 
these people when they come out. In fact, there are shortages 
throughout the nation. I would ask you to support $13 million 
for funding in the Maritime Administration budget for these 
schools. Last year, I think they were right around $9 million, 
and the year before that, they were right around $12 million. 
So, the $13 million is to get them back up to where they should 
have been. There have been some minor cuts in it.
    Second, the Thunder Bay National Marine Sanctuary, it is 
our newest marine sanctuary. It has taken some time to develop, 
but we now have an agreement between the state of Michigan and 
the federal government on how it is going to be done, what role 
each will play. It is the only marine sanctuary on the Great 
Lakes, so I am asking for $740,000 to help them--it is the 
first year of it--get some funding in there so they can provide 
and design the programs with this National Marine Sanctuary.
    National Sea Grant Program, as you all know, is a highly 
successful partnership with the federal government, the states, 
universities, private sector. Michigan state and the University 
of Michigan both are a great help to us. As Mr. Roemer 
mentioned, the Great Lakes and all the work we have been doing 
on the Great Lakes. The Sea Grants Program has just been 
invaluable to help us out in formulating that policy from clean 
water to drilling for oil and gas to the diversion of Great 
Lakes water. They have been very helpful to us. We would like 
to see funding for them.
    The International Joint Commission, I wanted to say a few 
words for that. The Chair of that committee is Tom Naldini. He 
will be leaving that position. A new individual from Michigan, 
I understand, Mr. Chaldak, may be the new Chair of that 
committee. The idea, you see, he does a lot of work. As you 
know, it is in the boundary of 1909--the International Boundary 
Waters Treaty Act. Between us, we set up this Commission to 
resolvedisputes. There was a dispute over oil and gas drilling. 
Again, the Great Lakes water diversion, everywhere from Maine to Alaska 
this committee does, it seems like we are always putting on more and 
more restrictions but not the monies to do it. Right now, they are 
trying to do a study to look at the single ecological system from the 
Saint Lawrence Seaway all the way over to Lake Superior. That is a 
pretty lengthy project they got going for the last five years, but they 
need some funds to do it. So, that is why we are asking for the $7.4 
million to be included.
    The rest of them, you hear us talk about the Great Lakes 
Fisheries Commission, the Great Lakes Environmental Research 
Labs. Those are all valid programs. This Committee has always 
been more than fair to them. We ask you to continue to support 
them. With that, Mr. Chairman, that is a good summary of my 
testimony. Any questions I will try to answer if I can.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.038
    
    [GRAPHIC] [TIFF OMITTED] T3378A.039
    
    [GRAPHIC] [TIFF OMITTED] T3378A.040
    
    [GRAPHIC] [TIFF OMITTED] T3378A.041
    
    [GRAPHIC] [TIFF OMITTED] T3378A.042
    
    [GRAPHIC] [TIFF OMITTED] T3378A.043
    
    [GRAPHIC] [TIFF OMITTED] T3378A.044
    
    Mr. Wolf. Thank you very much. Mr. Serrano.
    Mr. Serrano. I would just thank you for your testimony and 
for your involvement.
    You are always very clear on these issues. I know we have 
tried to be helpful in the past, and certainly this side will 
continue to do that.
    Mr. Wolf. Mr. Miller.
    Mr. Miller. No questions.
    Mr. Wolf. Thank you very much.
    Mr. Stupak. Thank you, Mr. Chairman.
                              ----------                              


                                WITNESS

HON. STEVEN ROTHMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Wolf. Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman. Good morning.
    Mr. Wolf. Good morning.
    Mr. Rothman. Thank you for having me. Mr. Serrano, I 
brought my pillow. A little surgery.
    Chairman Wolf, Ranking Member Serrano, members of the 
Committee, thank you for allowing me to come here today to 
speak to you about the Secure Our School Act.
    It is a pleasure and honor to appear before this 
Subcommittee for the first time as a member of the House 
Committee on Appropriations.
    I am appearing before the Subcommittee today with a simple 
request.
    Congress must give local school boards the resources to 
keep weapons out of their classrooms, not by way of any federal 
mandate, but, if local school boards decide that they need 
metal detectors, training for school-security people, money to 
coordinate with local police or to secure their buildings in 
other ways, and they are willing to put up half the money in a 
matching grant, we should give them half the money under the 
Secure Our School Act program.
    This is a security grant to be administered by the Office 
of Justice Programs.
    It is called the Secure Our Schools Act. The program is 
authorized in the conference report accompanying the Bill H.R. 
3244, Victims of Trafficking and Violence Protection Act of 
2000.
    The Secure Our Schools Act will help those local school 
districts who apply for this matching grant to purchase and 
implement such school-security measures, as I said, as metal 
detectors, security cameras, training personnel, and security 
issues working with law enforcement in efforts designed to keep 
schools safe and secure.
    I respectfully request that the Subcommittee fully funds 
this vital program at its authorized level of $30 million for 
Fiscal Year 2002.
    You know, Mr. Chairman, at one time, 30 years ago, there 
were weapons regularly brought onto airplanes--30 years ago.
    We decided, as a nation, that was intolerable, so we had 
metal detectors installed at airports around the country,now 
around the world--30 years ago.
    They have almost become invisible. They are a pain in the 
neck.
    But, 30 years we have been living with them, and we have 
had, knock wood, very good safety as a result. No one can 
question that.
    Here in the Capitol, after the tragic incidents we have had 
here with shootings, we installed metal detectors here in the 
Capitol to protect us and the visitors to the Capitol.
    Now, with all of the school shootings, children are writing 
to me all the time and stopping me whenever I go to schools, 
which is every month, and telling me about how unsafe they feel 
in their schools--how afraid they are.
    Is it not time we gave or increased our ability to provide 
these local schools, who asked for it.
    Many school districts will not have this need. They will 
not apply for a matching grant. They will not put up half of 
the money for something they do not need.
    It is not a mandate, but what about the local school board 
who says, ``You know what, this is a problem here. We would 
like to have metal--walk through metal detectors, give some 
kids a sense of security.''
    It also stops guns and other weapons from getting into the 
building.
    We did it with airplanes. We did it with us. Why not with 
our kids?
    That is why--You know, I was on the Judiciary Committee for 
my first four years in Congress before I got onto this esteemed 
Committee.
    Mr. Serrano. Prestigious.
    Mr. Rothman. A Prestigious Committee. Thank you, Mr. 
Serrano.
    You know, the House Judiciary Committee, at least in my 
four years, was a fairly partisan place.
    There were a few events that occurred in the last four 
years also that helped add to that partisanship.
    But, the Committee voted unanimously--unanimously to 
authorize the Secure Our Schools Act.
    The only reason it got included in the conference report is 
because my esteemed friend and colleague, the Honorable Henry 
Hyde, then Chairman of the Committee, I think it is fair and 
accurate to say, forced it on to the Conference Committee 
report, because it was, in his opinion, my opinion, and all the 
members of our Committee, and it passed by a voice vote in the 
House, that important.
    So, it was authorized. Now we just need the money to pay 
for what the children are asking for.
    I received a letter from a 14-year-old girl--14 years old 
in Palisades Park.
    If I may, I will read you a part of it--small part----
    ``Some would think'', she is 14 in the eighth grade. ``Some 
would think that being a 14-year-old eighth grader is all about 
trying to make it through adolescence while still reeling in 
one's carefree youth.
    Well, it is not. The times have changed, and anyone who 
does think that has a lot to learn about the future generation 
of this country.
    The object of this letter is to express the fear that 
American children are forced to deal with daily.''
    This is from a 14-year-old girl. She is not the child of a 
politician.
    I do not know what party she is from. I did not ask her to 
write me the letter. I just got that letter in the mail.
    One of many, and I will read you a little bit of another 
one at the end.
    This is a program that is voluntary. No federal mandate. 
None.
    If schools do not want it, they do not have to apply for 
it. Only those who are willing to put up half the money can get 
half the money back.
    There are some that have said that, while this is a novel 
idea, there must be some other programs that are addressing 
this problem.
    We do not want any redundancies, and I agree. There are 
other programs that touch upon this problem.
    For example, in Fiscal Year 1998, the Local Law Enforcement 
Block Grant Program touched upon this program.
    However, only 2.3 percent--2.3 percent of the money went 
for school security measures--$9.4 million.
    Also, under the Safe and Drug-Free Schools and Community 
Acts, they say that no more than 20 percent of the funds can be 
used to be given to any local educational entity to support 
safe zones for passage, including security personnel and metal 
detectors.
    But, this is the only program focused exclusively and 
solely on security measures and the matching-grant program.
    There are 88--over 88,000 public schools in the United 
States--88,000.
    Eighty-four (84) percent of them have been found to have 
low security.
    My staff has contacted metal-detector manufacturers and 
wholesalers, and the price of a walk-through--no-frills walk-
through metal detector is about $2000.
    The hand-held one is about $169 apiece. When you consider 
that there are 88,000 public schools, and 84 percent of them 
have low security, then you know there is a national need that 
is not being addressed by $9 million.
    Mr. Chairman, before I got the other letter, and what 
caused me to create the Secure Our Schools Act a year and a 
half ago, a letter.
    I will only read you the one sentence from this other young 
girl from another middle school in my district from 
Saddlebrook, New Jersey. By the way, these are not urban areas, 
for your information. They are suburban.
    The last line was--She said, ``School is supposed to be a 
place where we feel safe.''
    Can you imagine that--your kid saying that, ``Hey dad, 
school is supposed to be a place where we feel safe. Can't you 
guys do something about that?''
    My son and daughter are always saying to me, ``Can't you 
guys pass a law about these things?''
    You know sometimes it is about chewing gum or about silly 
things but certainly when it comes to this and they ask you to 
pass a law, and we look into it and we say that there is not 
sufficient funding going to the 88,000--or being available to 
those school boards who request it and match it, we are not 
willing to meet this need, yet we did for ourselves in the 
Capitol, as we do in the airports, and in terms of your school 
philosophy--I am not asking the school board to adopt my 
philosophy--I am saying that if they say it is a need then I am 
saying we in the Congress are not deaf to your cries for help.
    You are our kids, and we are going to make your schools 
safe. One other item, it was estimated that it wouldrequire 
$352 million to outfit all the 88,000 schools with a walk-through metal 
detector--$352 million. We are asking for $30 million. It was an 
authorization for three years. We lost last year, got no money.
    There are two years left on the authorization. I am hopeful 
that this Committee will this year fund this program so I can 
write back to this girl, who wrote to me, who said metal 
detectors should be placed in all schools.
    Then, she says, ``If students at Columbine had a metal 
detector, the outcome may have been completely different.
    ``Just the presence of a guard and a metal detector at a 
school's entrance might prevent a student from wanting to bring 
a gun at all.
    ``Other students would get a feeling of security and safety 
that they do not have now.'' I would like to give them that, 
not just the feeling of safety, which is the absence of that 
feeling, by the way. If our kids as a generation do not feel 
safe, that is not a good environment for them to learn in. I 
think that is a fair statement.
    So you would say there is a real need for the program and 
our kids feel unsafe. How do we help our kids feel safe in 
their schools and also address the real problem?
    Thank you, Mr. Chairman.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.045
    
    [GRAPHIC] [TIFF OMITTED] T3378A.046
    
    [GRAPHIC] [TIFF OMITTED] T3378A.047
    
    [GRAPHIC] [TIFF OMITTED] T3378A.048
    
    [GRAPHIC] [TIFF OMITTED] T3378A.049
    
    [GRAPHIC] [TIFF OMITTED] T3378A.050
    
    [GRAPHIC] [TIFF OMITTED] T3378A.051
    
    [GRAPHIC] [TIFF OMITTED] T3378A.052
    
    [GRAPHIC] [TIFF OMITTED] T3378A.053
    
    Mr. Wolf. Thank you, Mr. Rothman for your testimony.
    Mr. Serrano.
    Mr. Serrano. Well, no, I just want to thank you. Like so 
many people in this Congress who are very upset about the 
violence in our schools, I must tell you that I face this 
situation with a little pain at the fact that where I went to 
school over 40 years ago, the schools were not safe and they 
were very violent.
    One of the tragedies of this country is that when inner-
city problems reach the suburbs they become issues. That does 
not make them any less important, but some of us who grew up in 
the inner city dealt with violent schools that had metal 
detectors before they were in fashion, and no one seemed to pay 
attention.
    But it is still a problem that has to be dealt with, and so 
we will get up and do it.
    However, I also get a little nervous when, every time our 
government--and that includes my Past President, also, who I 
love--every time somebody gets upset throughout the world, we 
threaten to go beat them up and I wonder how much young people 
see our government promoting violence and then think it is okay 
for them to promote it, too. That is my comment for the day.
    Thank you.
    Mr. Rothman. Well maybe we can protect the good kids from 
those who have the wrong idea about violence by stopping them 
at the front door.
    Mr. Wolf. All right, thank you very much.
    Mr. Rothman. Thank you, Mr. Chairman.
                              ----------                              


                                WITNESS

HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Wolf. Ms. Pelosi, welcome back. I am impressed that you 
have your staff person back for these important issues.
    Ms. Pelosi. Yes, back from San Francisco.
    Mr. Wolf. Just when we need her.
    Ms. Pelosi. Well, Mr. Chairman, how could we resist coming 
out full force to testify before you as the new Chair of this 
very, very important Committee. Congratulations to you.
    Mr. Wolf. Thank you.
    Ms. Pelosi. I wish you much success, Mr. Serrano, to you as 
well. You are blessed with a wonderful Chairman, and I wish you 
luck.
    This is a very important Committee. I used to sit right 
there in the old days.
    Mr. Chairman, I want to testify on a number of subjects, 
because, as you know, your jurisdiction is broad, and I will 
try to be brief.
    First, I want to talk in the Justice Department. I 
respectfully request $1.5 million for the city of SanFrancisco 
Geographic Information Crime Mapping System--GIS. The GIS will provide 
central information to officers in the field and enable command staff 
to make prompt informed decisions during crisis situations. It will 
help the city build the applications to require information from the 
respective agencies, complete the technology infrastructure, and deploy 
it to command and line officers in the field. This, I think, could be a 
model program, and it is a request of $1.5 million.
    Next, Immigration and Naturalization Service, still under 
Justice, once again I am testifying about the problems of 
insufficient INS staffing at San Francisco Airport. The Airport 
Commission does, in consultation with the INS, design work 
areas with 88 INS work-stations to process a minimum of 5000 
passengers per hour. In order to staff the 88 stations and meet 
the federal processing standard, the INS must increase the 
number of inspectors assigned to San Francisco to 223 full-
time. Currently, there are 130 full-time, well short of the 
needs. I request the Subcommittee's assistance in solving this 
problem. I am submitting a draft report for your consideration.
    The National Marine Fisheries Service--I join other members 
of the California, Washington, and Oregon State delegations in 
requesting $165 million for the Pacific Coastal Salmon Recovery 
Program. Mr. Chairman, you can become an expert on salmon on 
this Committee, if you already are not one. The salmon have 
disappeared from nearly half of their traditional spawning 
habitats in the Pacific coast states. Failure to restore these 
populations has an adverse impact on ecology, economy, and the 
culture of the region. The Salmon Recovery Program plays an 
important role in salmon recovery. I hope you will consider 
that.
    And now, Mr. Chairman, I wanted to take a minute to talk 
about three requests that have to do with Asia. Absolutely 
first of course there is the Asia Foundation. I support a 
funding level of $15 million for the Asia Foundation. The 
Administration's request of $9.2 million is inadequate and 
would limit the Foundation's ability to undertake important 
programs, given the new challenges and opportunities in Asia.
    I have more for the record, and I will just go on to the 
China Commission. You and I are very familiar with this, Mr. 
Chairman, and I am hoping that it is more than we thought it 
might be in the course of the debate on PNTR. Proponents of the 
Commission believe that $1.3 million would fund necessary costs 
for 2002. The China Commission was designed to monitor human 
rights and development of the rule of law in China and make 
recommendations for legislative or executive action. So I hope 
that the Committee will consider their $1.3 million request. 
And then we will see how it goes and see if it is worthy of 
further support. But I think we do not have too much, so it is 
at least something.
    And Radio Free Asia. I support the Administration's request 
for FY 2002 for $25.2 million for Radio Free Asia. In addition, 
last year's PNTR bill authorized an additional $99 million for 
enhanced broadcasting to China by Radio Free Asia. I hope the 
Subcommittee will consider additional funding for Radio Free 
Asia as appropriate.
    And I want to associate myself with enthusiasm for your 
Commission on Religious Freedom, which I know will be looked 
upon fondly by the Committee. It is very important to all of 
us. I thank you for your leadership on that and hope that you 
will give some consideration to my request.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.054
    
    [GRAPHIC] [TIFF OMITTED] T3378A.055
    
    [GRAPHIC] [TIFF OMITTED] T3378A.056
    
    [GRAPHIC] [TIFF OMITTED] T3378A.057
    
    Mr. Wolf. Thank you. We will, I can assure you. Thank you 
for taking the time to come before the Committee.
    Ms. Pelosi. Congratulations to you again, Mr. Chairman, and 
good luck. Thank you, Mr. Serrano.
    Mr. Wolf. Mr. Serrano.
    Mr. Serrano. Well, we just want to thank you, Nancy. I know 
how strong you were on the issue of PNTR and certainly those of 
us who supported the trade decision also said that we wanted 
very much for this Commission to look at things that have to be 
looked at. So certainly, your argument on behalf of funding it 
is well founded.
    Ms. Pelosi. Thank you, Mr. Serrano.
    Mr. Wolf. I was disappointed it took them so long to 
actually appoint them.
    Ms. Pelosi. They still are not appointed.
    Mr. Wolf. Well, I understand the names are circulating.
    Ms. Pelosi. It is moving along.
    Mr. Wolf. Particularly now, I think a lot of Members are 
going to really have a conscience problem. I saw in yesterday's 
Washington Post, another Catholic bishop arrested. He had been 
in prison for 30 years before, and he went to Beijing and they 
arrested him.
    There is a young woman from my Congressional District who 
was a scholar at American University who was arrested. They 
arrested her husband. They arrested her son, who is five years 
old, took them away.
    Those who were proponents of it and actively spoke out and 
said it would change the complexion and the attitude. I saw an 
article by Tony Blankley the other day where it talked about 
the efforts in 1936 in Great Britain dealing with the Nazis and 
the remembrance of the 1936 Olympics in Berlin that would 
change the Nazis.
    It is like history is repeating itself. And I think a lot 
of members are going to have a real issue when PNTR comes up if 
that plane is not back. So I think hopefully the Commission can 
be very, very aggressive. But I do not know. This is going to 
be a real tiff for the Congress.
    It would be my hope the Congress would reject PNTR. 
Obviously the President would veto it. But I think it would 
send a message that at least someone in this country cares 
deeply enough, even if it's not the Administration, to speak 
out on this issue. This is going to be an interesting summer on 
this.
    Ms. Pelosi. You are an inspiration, Mr. Chairman. If I just 
may say, on the basis of trade alone, the PNTR is not 
justified.
    The Administration in March issued a report that China has 
not lived up to its bilateral agreements for entry into WTO in 
terms of agriculture, poultry and grain. At the time that we 
were passing the bill last year, the trade minister there was 
saying--and it was being sold on the basis of it is going to be 
a real market for ag products--their trade minister said any 
thought that there would be access to our markets for grain is 
only a theoretical opportunity.
    And as far as meat was concerned they said, in diplomacy 
you have to think of new terms to apply. That is what diplomacy 
is. And we have come up with some new words, but there is 
nothing changed in what we would do. So they told us they were 
not going to do it.
    So we are in a difficult situation, and we can either 
ignore the China Commission and say it was a fig leaf to get 
some people to vote for it and to salve their conscience when 
they knew that it probably was not going to amount to much, or 
we can say, okay, let's fund it. Let's give it a chance and 
see. Because we have very few options.
    I was very disappointed that the business community during 
the Geneva--the very business community that said trade and 
human rights should not be linked, you should have multilateral 
approaches to human rights and promoting freedom. And then we 
went to a multilateral body, the U.N., to promote it, and they 
said this is a terrible thing that they are doing, and the 
business community criticized that, too.
    So let's see if this Commission can be a focal place, and 
if it is not, then you can make a judgment next year. I have 
confidence in Sandy Levin. I think he is a person of good 
intention. And so on that basis, I made the decision to come 
testify for him.
    Mr. Wolf. Thank you.
    Ms. Pelosi. Thank you, Mr. Chairman. Thank you, Mr. 
Serrano.
                              ----------                              


                                WITNESS

HON. WAYNE GILCHREST, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Wolf. Governor Gilchrest.
    Mr. Gilchrest. Mr. Chairman, Frank Fox.
    Mr. Wolf. Frank who?
    Mr. Gilchrest. Frank Who? Should I tell that story?
    Mr. Wolf. Sure, why don't you tell it. As long as she is 
not recording it. [Laughter.]
    [Discussion off the record.]
    Mr. Wolf. Go ahead. Your full statement will appear in the 
record.
    Mr. Gilchrest. Thank you, Frank.
    We have a number--six very brief items reasonably funded. I 
would just like to say something about each one.
    The NOAA Chesapeake Bay Office, we are asking for $6 
million. What they do with that $6 million is pretty 
extraordinary. It is called a multispecies management program. 
It used to be that you would manage, for example, rockfish or 
menhaden so that you catch so many rockfish, you catch so many 
menhaden, you catch so many other particular species.
    What the NOAA Chesapeake Bay Office is trying to do with a 
number of other state organizations and the commercial and 
recreational fishermen is to say that menhaden, for example, 
which is a small fish and does not eat other fish, it is a 
filter feeder. It swims through the bay and actually performs a 
function by cleaning out nutrients in the bay. So menhaden, you 
will give so many menhaden to the commercial fishermen, and you 
will give so many menhaden to the Chesapeake Bay itself, 
because the bay used to be a lot cleaner than it is now, and 
the natural ecosystem in the Bay can function as a very 
productive but cleansing mechanical entity, if you will. So 
that and a number of other things, $6 million to the Bay Office 
to implement multispecies management.
    The other one is Oyster Reef Restoration. You hear a lot 
about oyster bars. An oyster bar is actually under the water. 
You do not go to a bar and eat oysters and drink Coors Lite or 
something. The bar is under the water and it is flat, and it is 
where people get the oysters from. Originally, before John 
Smith came here and shortly thereafter, there were oyster reefs 
that were certainly as high as this ceiling or higher, and it 
provided an enormous filtering system for the Chesapeake Bay. 
And for decades in the previous century, you could get 15 to 16 
to 20 million bushels of oysters out of the Chesapeake Bay 
annually. Now we are down to about 300,000 if we are lucky. So 
at the turn of the century we went from 15 million bushels 
harvested down to 300,000.
    What the program to restore oyster reefs is trying to do is 
to build that oyster reef system back up so that you will 
always have a pretty voluminous amount of oysters. You will be 
able to take the interest on that money in the bank and live 
off it, if we can rebuild the oyster reefs, which we think we 
can do in about 10, 15 years. We will be able to take the 
interest off the oyster reefs, and the oysters will be much 
healthier and more productive and be able to clean the bay out 
like it used to in about three days. Oysters do not do any 
cleansing activity now. There are too few oysters, and it is 
too many nutrients coming in.
    The next one deals with NMFS Fishery Research, $27.8 
million. The reason this is important, and this is a 
nationwide, this is a national activity, there is always 
misinformation about how many fish there are out there. So how 
do you manage the fish to sustain it with commercial fishermen 
if you do not know how many fish there are? And we never quite 
have enough information about that data, and we are trying to 
work on that to get more observers on boats.
    But this collaborative effort works with the commercial 
fishermen who do know how many fish out there, because they 
know how much they catch and how much they sell. So this is a 
national program to better understand the nature of the fishery 
with a collaborative effort with the commercial fishermen.
    The next one is Oceanic and Atmospheric Research, which do 
an awful lot of good on a number of issues, certainly 
understanding the nature of climate change. But in the nature 
of the marine ecosystem, we have a big problem with harmful 
algal blooms. You may have heard of brown tides. You probably 
are familiar with something in the Chesapeake Bay on the East 
Coast called Pfiesteria.
    Brown tides, Pfiesteria are actually tiny little 
microorganisms that are a cross between an animal and a plant, 
and they go through certain cycles. Under certain cycles, they 
release a toxic chemical that causes huge fish kills. In North 
Carolina, well over a billion alone were killed. In the 
Chesapeake Bay there are millions killed. In the Gulf of Mexico 
they not only affect fish but they kill manatee.
    Now the basic reason for harmful algal blooms is--I will 
try to equate it to soil. If you have really good soil that you 
have not farmed--really good soil that is very enriched with 
all of the nutrients and the little tiny bugs that are supposed 
to be in there, you are not going to have any weeds. But if you 
tear apart that soil, put too many pesticides on it, too many 
herbicides, too many other things, and you try to grow 
something, you are going to have a lot of weeds in that soil. 
And weeds do not need the same nutrients. They can survive off 
of almost no nutrients.
    In the ocean there is microorganisms that do a lot of good 
in this natural cycle. But if you destroy the quality of the 
water you get these brown tides of pfiesteria. What that does, 
then, is fish that feed off of these things do not have the 
proper nutrients. They begin to get sores. They begin to feed 
on other things. So you mess up the natural mechanics of that 
process. And what the Oceanic and Atmospheric Research is going 
to do is figure out the problem of these harmful algal blooms, 
get in there and solve it.
    Sea Grant deals with oyster disease research which goes 
back to one of the earlier things we talked about, an oyster 
disease, especially in the bay, has decimated oysters, not only 
around here, but around the world. So if we can crack that nut 
as to what causes this disease and then create an oyster that 
is resistant to that disease, everybody is going to be better 
off.
    The last one is National Ocean Service, and it deals with 
two very important things. Non-Point Pollution. If you do not 
have some way to stop the nutrients or the chemicals from 
getting into the water, you are never going to win the battle. 
If you can find some way to absorb the nutrients that run off 
streets or parking lots or buildings or air deposition from 
factories, you can begin the process of restoring the natural 
ecosystem.
    And the last one here, $10.4 million for that. The last one 
is $5 million. It is called the Marine Protected Areas, the 
areas around the coastal regions of the United States, out to 
maybe 200 miles, where you will set aside a particular place. 
And we use them now, and they are very successful. It is like 
on land you would say wildlife refuge. There are 90 million 
acres of wildlife refuges around the country, and they are a 
watering hole for migrating water fowl or some other type of 
wildlife or species. And it is a place where they can have a 
respite and replenish their herd or their flock.
    Well, Marine Protected Areas are areas where you can 
protect certain stocks of fisheries so that that stock can be 
replenished.
    And that is five minutes, and that is the end of my speech, 
gentlemen. I appreciate your time and patience.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.058
    
    [GRAPHIC] [TIFF OMITTED] T3378A.059
    
    [GRAPHIC] [TIFF OMITTED] T3378A.060
    
    [GRAPHIC] [TIFF OMITTED] T3378A.061
    
    [GRAPHIC] [TIFF OMITTED] T3378A.062
    
    Mr. Wolf. Well, thank you very much. I appreciate all the 
great work you have done for the Chesapeake Bay. I mean, 
frankly, you have done more than anybody else in Congress, and 
it is very appropriate coming from your District, and I know 
how much you care about it, too. So I appreciate that and thank 
you for testimony, and we will do what we can.
    Mr. Serrano.
    Mr. Serrano. I just want to thank you also for a very 
thoughtful presentation. A lot of people do not understand that 
the South Bronx, my District, has some of these concerns also 
that we have developed in the last few years.
    My District is surrounded by the Harlem River on one side, 
the East River on one side and the Lower Manhattan Sound. And 
NOAA now has been spending time in our District and teaching 
the kids that rivers are just not waterways to build a bridge 
over to get to Yankee Stadium. It is a whole different 
situation.
    And in addition, as the Chairman is quickly finding out, I 
am one of those few people who represents two districts, one in 
the Bronx and one called Puerto Rico, and that place is totally 
surrounded by water. So these issues come into play.
    And my last thought is that whenever anyone from Maryland 
comes to speak here, I always get hungry after reading all 
their stuff. [Laughter.]
    Mr. Serrano. Keep that in mind. [Laughter.]
    Mr. Gilchrest. We will be back.
    Mr. Wolf. Thank you very much.
    Mr. Gilchrest. Thanks, Frank. Thank you, Mr. Chairman.
    Mr. Wolf. And with that, I think that's the last witness. 
The hearing is adjourned.
    [Testimony submitted for the record follows:]
    [GRAPHIC] [TIFF OMITTED] T3378A.063
    
    [GRAPHIC] [TIFF OMITTED] T3378A.064
    
    [GRAPHIC] [TIFF OMITTED] T3378A.065
    
    [GRAPHIC] [TIFF OMITTED] T3378A.066
    
    [GRAPHIC] [TIFF OMITTED] T3378A.067
    
    [GRAPHIC] [TIFF OMITTED] T3378A.068
    
    [GRAPHIC] [TIFF OMITTED] T3378A.069
    
    [GRAPHIC] [TIFF OMITTED] T3378A.070
    
    [GRAPHIC] [TIFF OMITTED] T3378A.071
    
    [GRAPHIC] [TIFF OMITTED] T3378A.072
    
    [GRAPHIC] [TIFF OMITTED] T3378A.073
    
    [GRAPHIC] [TIFF OMITTED] T3378A.074
    
    [GRAPHIC] [TIFF OMITTED] T3378A.075
    
    [GRAPHIC] [TIFF OMITTED] T3378A.076
    
    [GRAPHIC] [TIFF OMITTED] T3378A.077
    
    [GRAPHIC] [TIFF OMITTED] T3378A.078
    
    [GRAPHIC] [TIFF OMITTED] T3378A.079
    
    [GRAPHIC] [TIFF OMITTED] T3378A.080
    
    [GRAPHIC] [TIFF OMITTED] T3378A.081
    
    [GRAPHIC] [TIFF OMITTED] T3378A.082
    
    [GRAPHIC] [TIFF OMITTED] T3378A.083
    
    [GRAPHIC] [TIFF OMITTED] T3378A.084
    
    [GRAPHIC] [TIFF OMITTED] T3378A.085
    
    [GRAPHIC] [TIFF OMITTED] T3378A.086
    
    [GRAPHIC] [TIFF OMITTED] T3378A.087
    
    [GRAPHIC] [TIFF OMITTED] T3378A.088
    
    [GRAPHIC] [TIFF OMITTED] T3378A.089
    
    [GRAPHIC] [TIFF OMITTED] T3378A.090
    
    [GRAPHIC] [TIFF OMITTED] T3378A.091
    
    [GRAPHIC] [TIFF OMITTED] T3378A.092
    
    [GRAPHIC] [TIFF OMITTED] T3378A.093
    
    [GRAPHIC] [TIFF OMITTED] T3378A.094
    
    [GRAPHIC] [TIFF OMITTED] T3378A.095
    
    [GRAPHIC] [TIFF OMITTED] T3378A.096
    
    [GRAPHIC] [TIFF OMITTED] T3378A.097
    
    [GRAPHIC] [TIFF OMITTED] T3378A.098
    
    [GRAPHIC] [TIFF OMITTED] T3378A.099
    
    [GRAPHIC] [TIFF OMITTED] T3378A.100
    
    [GRAPHIC] [TIFF OMITTED] T3378A.101
    
    [GRAPHIC] [TIFF OMITTED] T3378A.102
    
    [GRAPHIC] [TIFF OMITTED] T3378A.103
    
    [GRAPHIC] [TIFF OMITTED] T3378A.104
    
    [GRAPHIC] [TIFF OMITTED] T3378A.105
    
    [GRAPHIC] [TIFF OMITTED] T3378A.106
    
    [GRAPHIC] [TIFF OMITTED] T3378A.107
    
    [GRAPHIC] [TIFF OMITTED] T3378A.108
    
    [GRAPHIC] [TIFF OMITTED] T3378A.109
    
    [GRAPHIC] [TIFF OMITTED] T3378A.110
    
    [GRAPHIC] [TIFF OMITTED] T3378A.111
    
    [GRAPHIC] [TIFF OMITTED] T3378A.112
    
    [GRAPHIC] [TIFF OMITTED] T3378A.113
    
    [GRAPHIC] [TIFF OMITTED] T3378A.114
    
    [GRAPHIC] [TIFF OMITTED] T3378A.115
    
    [GRAPHIC] [TIFF OMITTED] T3378A.116
    
    [GRAPHIC] [TIFF OMITTED] T3378A.117
    
    [GRAPHIC] [TIFF OMITTED] T3378A.118
    
    [GRAPHIC] [TIFF OMITTED] T3378A.119
    
    [GRAPHIC] [TIFF OMITTED] T3378A.120
    
    [GRAPHIC] [TIFF OMITTED] T3378A.121
    
    [GRAPHIC] [TIFF OMITTED] T3378A.122
    
    [GRAPHIC] [TIFF OMITTED] T3378A.123
    
    [GRAPHIC] [TIFF OMITTED] T3378A.124
    
    [GRAPHIC] [TIFF OMITTED] T3378A.125
    
    [GRAPHIC] [TIFF OMITTED] T3378A.126
    
    [GRAPHIC] [TIFF OMITTED] T3378A.127
    
    [GRAPHIC] [TIFF OMITTED] T3378A.128
    
    [GRAPHIC] [TIFF OMITTED] T3378A.129
    
    [GRAPHIC] [TIFF OMITTED] T3378A.130
    
    [GRAPHIC] [TIFF OMITTED] T3378A.131
    
    [GRAPHIC] [TIFF OMITTED] T3378A.132
    
    [GRAPHIC] [TIFF OMITTED] T3378A.133
    
    [GRAPHIC] [TIFF OMITTED] T3378A.134
    
    [GRAPHIC] [TIFF OMITTED] T3378A.135
    
    [GRAPHIC] [TIFF OMITTED] T3378A.136
    
    [GRAPHIC] [TIFF OMITTED] T3378A.137
    
    [GRAPHIC] [TIFF OMITTED] T3378A.138
    
    [GRAPHIC] [TIFF OMITTED] T3378A.139
    
    [GRAPHIC] [TIFF OMITTED] T3378A.140
    
    [GRAPHIC] [TIFF OMITTED] T3378A.141
    
    [GRAPHIC] [TIFF OMITTED] T3378A.142
    
    [GRAPHIC] [TIFF OMITTED] T3378A.143
    
    [GRAPHIC] [TIFF OMITTED] T3378A.144
    
    [GRAPHIC] [TIFF OMITTED] T3378A.145
    
    [GRAPHIC] [TIFF OMITTED] T3378A.146
    
    [GRAPHIC] [TIFF OMITTED] T3378A.147
    
    [GRAPHIC] [TIFF OMITTED] T3378A.148
    
    [GRAPHIC] [TIFF OMITTED] T3378A.149
    
    [GRAPHIC] [TIFF OMITTED] T3378A.150
    
    [GRAPHIC] [TIFF OMITTED] T3378A.151
    
    [GRAPHIC] [TIFF OMITTED] T3378A.152
    
    [GRAPHIC] [TIFF OMITTED] T3378A.153
    
    [GRAPHIC] [TIFF OMITTED] T3378A.154
    
    [GRAPHIC] [TIFF OMITTED] T3378A.155
    
    [GRAPHIC] [TIFF OMITTED] T3378A.156
    
    [GRAPHIC] [TIFF OMITTED] T3378A.157
    
    [GRAPHIC] [TIFF OMITTED] T3378A.158
    
    [GRAPHIC] [TIFF OMITTED] T3378A.159
    
    [GRAPHIC] [TIFF OMITTED] T3378A.160
    
    [GRAPHIC] [TIFF OMITTED] T3378A.161
    
    [GRAPHIC] [TIFF OMITTED] T3378A.162
    
    [GRAPHIC] [TIFF OMITTED] T3378A.163
    
    [GRAPHIC] [TIFF OMITTED] T3378A.164
    
    [GRAPHIC] [TIFF OMITTED] T3378A.165
    
    [GRAPHIC] [TIFF OMITTED] T3378A.166
    
    [GRAPHIC] [TIFF OMITTED] T3378A.167
    
    [GRAPHIC] [TIFF OMITTED] T3378A.168
    
    [GRAPHIC] [TIFF OMITTED] T3378A.169
    
    [GRAPHIC] [TIFF OMITTED] T3378A.170
    
    [GRAPHIC] [TIFF OMITTED] T3378A.171
    
    [GRAPHIC] [TIFF OMITTED] T3378A.172
    
    [GRAPHIC] [TIFF OMITTED] T3378A.173
    
    [GRAPHIC] [TIFF OMITTED] T3378A.174
    
    [GRAPHIC] [TIFF OMITTED] T3378A.175
    
    [GRAPHIC] [TIFF OMITTED] T3378A.176
    
    [GRAPHIC] [TIFF OMITTED] T3378A.177
    
    [GRAPHIC] [TIFF OMITTED] T3378A.178
    
    [GRAPHIC] [TIFF OMITTED] T3378A.179
    
    [GRAPHIC] [TIFF OMITTED] T3378A.180
    
    [GRAPHIC] [TIFF OMITTED] T3378A.181
    
    [GRAPHIC] [TIFF OMITTED] T3378A.182
    
    [GRAPHIC] [TIFF OMITTED] T3378A.183
    
    [GRAPHIC] [TIFF OMITTED] T3378A.184
    
    [GRAPHIC] [TIFF OMITTED] T3378A.185
    
    [GRAPHIC] [TIFF OMITTED] T3378A.186
    
    [GRAPHIC] [TIFF OMITTED] T3378A.187
    
    [GRAPHIC] [TIFF OMITTED] T3378A.188
    
    [GRAPHIC] [TIFF OMITTED] T3378A.189
    
    [GRAPHIC] [TIFF OMITTED] T3378A.190
    
    [GRAPHIC] [TIFF OMITTED] T3378A.191
    
    [GRAPHIC] [TIFF OMITTED] T3378A.192
    
    [GRAPHIC] [TIFF OMITTED] T3378A.193
    
    [GRAPHIC] [TIFF OMITTED] T3378A.194
    
    [GRAPHIC] [TIFF OMITTED] T3378A.195
    
    [GRAPHIC] [TIFF OMITTED] T3378A.196
    
    [GRAPHIC] [TIFF OMITTED] T3378A.197
    
    [GRAPHIC] [TIFF OMITTED] T3378A.198
    
    [GRAPHIC] [TIFF OMITTED] T3378A.199
    
    [GRAPHIC] [TIFF OMITTED] T3378A.200
    
    [GRAPHIC] [TIFF OMITTED] T3378A.201
    
    [GRAPHIC] [TIFF OMITTED] T3378A.202
    
    [GRAPHIC] [TIFF OMITTED] T3378A.203
    
    [GRAPHIC] [TIFF OMITTED] T3378A.204
    
    [GRAPHIC] [TIFF OMITTED] T3378A.205
    
    [GRAPHIC] [TIFF OMITTED] T3378A.206
    
    [GRAPHIC] [TIFF OMITTED] T3378A.207
    
    [GRAPHIC] [TIFF OMITTED] T3378A.208
    
    [GRAPHIC] [TIFF OMITTED] T3378A.209
    
    [GRAPHIC] [TIFF OMITTED] T3378A.210
    
    [GRAPHIC] [TIFF OMITTED] T3378A.211
    
    [GRAPHIC] [TIFF OMITTED] T3378A.212
    
    [GRAPHIC] [TIFF OMITTED] T3378A.213
    
    [GRAPHIC] [TIFF OMITTED] T3378A.214
    
    [GRAPHIC] [TIFF OMITTED] T3378A.215
    
    [GRAPHIC] [TIFF OMITTED] T3378A.216
    
    [GRAPHIC] [TIFF OMITTED] T3378A.217
    
    [GRAPHIC] [TIFF OMITTED] T3378A.218
    
    [GRAPHIC] [TIFF OMITTED] T3378A.219
    
    [GRAPHIC] [TIFF OMITTED] T3378A.220
    
    [GRAPHIC] [TIFF OMITTED] T3378A.221
    
    [GRAPHIC] [TIFF OMITTED] T3378A.222
    
    [GRAPHIC] [TIFF OMITTED] T3378A.223
    
    [GRAPHIC] [TIFF OMITTED] T3378A.224
    
    [GRAPHIC] [TIFF OMITTED] T3378A.225
    
    [GRAPHIC] [TIFF OMITTED] T3378A.226
    
    [GRAPHIC] [TIFF OMITTED] T3378A.227
    
    [GRAPHIC] [TIFF OMITTED] T3378A.228
    
    [GRAPHIC] [TIFF OMITTED] T3378A.229
    
    [GRAPHIC] [TIFF OMITTED] T3378A.230
    
    [GRAPHIC] [TIFF OMITTED] T3378A.231
    
    [GRAPHIC] [TIFF OMITTED] T3378A.232
    
    [GRAPHIC] [TIFF OMITTED] T3378A.233
    
    [GRAPHIC] [TIFF OMITTED] T3378A.234
    
    [GRAPHIC] [TIFF OMITTED] T3378A.235
    
    [GRAPHIC] [TIFF OMITTED] T3378A.236
    
    [GRAPHIC] [TIFF OMITTED] T3378A.237
    
    [GRAPHIC] [TIFF OMITTED] T3378A.238
    
    [GRAPHIC] [TIFF OMITTED] T3378A.239
    
    [GRAPHIC] [TIFF OMITTED] T3378A.240
    
    [GRAPHIC] [TIFF OMITTED] T3378A.241
    
    [GRAPHIC] [TIFF OMITTED] T3378A.242
    
    [GRAPHIC] [TIFF OMITTED] T3378A.243
    
    [GRAPHIC] [TIFF OMITTED] T3378A.244
    
    [GRAPHIC] [TIFF OMITTED] T3378A.245
    
    [GRAPHIC] [TIFF OMITTED] T3378A.246
    
    [GRAPHIC] [TIFF OMITTED] T3378A.247
    
    [GRAPHIC] [TIFF OMITTED] T3378A.248
    
    [GRAPHIC] [TIFF OMITTED] T3378A.249
    
    [GRAPHIC] [TIFF OMITTED] T3378A.250
    
    [GRAPHIC] [TIFF OMITTED] T3378A.251
    
    [GRAPHIC] [TIFF OMITTED] T3378A.252
    
    [GRAPHIC] [TIFF OMITTED] T3378A.253
    
    [GRAPHIC] [TIFF OMITTED] T3378A.254
    
    [GRAPHIC] [TIFF OMITTED] T3378A.255
    
    [GRAPHIC] [TIFF OMITTED] T3378A.256
    
    [GRAPHIC] [TIFF OMITTED] T3378A.257
    
    [GRAPHIC] [TIFF OMITTED] T3378A.258
    
    [GRAPHIC] [TIFF OMITTED] T3378A.259
    
    [GRAPHIC] [TIFF OMITTED] T3378A.260
    
    [GRAPHIC] [TIFF OMITTED] T3378A.261
    
    [GRAPHIC] [TIFF OMITTED] T3378A.262
    
    [GRAPHIC] [TIFF OMITTED] T3378A.263
    
    [GRAPHIC] [TIFF OMITTED] T3378A.264
    
    [GRAPHIC] [TIFF OMITTED] T3378A.265
    
    [GRAPHIC] [TIFF OMITTED] T3378A.266
    
    [GRAPHIC] [TIFF OMITTED] T3378A.267
    
    [GRAPHIC] [TIFF OMITTED] T3378A.268
    
    [GRAPHIC] [TIFF OMITTED] T3378A.269
    
    [GRAPHIC] [TIFF OMITTED] T3378A.270
    
    [GRAPHIC] [TIFF OMITTED] T3378A.271
    
    [GRAPHIC] [TIFF OMITTED] T3378A.272
    
    [GRAPHIC] [TIFF OMITTED] T3378A.273
    
    [GRAPHIC] [TIFF OMITTED] T3378A.274
    
    [GRAPHIC] [TIFF OMITTED] T3378A.275
    
    [GRAPHIC] [TIFF OMITTED] T3378A.276
    
    [GRAPHIC] [TIFF OMITTED] T3378A.277
    
    [GRAPHIC] [TIFF OMITTED] T3378A.278
    
    [GRAPHIC] [TIFF OMITTED] T3378A.279
    


                          MEMBERS OF CONGRESS

                              ----------                              
                                                                   Page
Allen, Hon. Thomas...............................................    34
Baca, Hon. Joe...................................................   110
Barrett, Hon. Thomas.............................................     6
Campbell, Hon. Ben Nighthorse....................................    11
Crowley, Hon. Joseph.............................................    21
Farr, Hon. Sam...................................................    46
Galleghy, Hon. Elton.............................................   113
Gilchrest, Hon. Wayne............................................   101
Greenwood, Hon. James............................................   117
Hoyer, Hon. Steny................................................   119
Pascrell, Jr., Hon. Bill.........................................    51
Pelosi, Hon. Nancy...............................................    93
Reyes, Hon. Silvestre............................................    63
Roemer, Hon. Tim.................................................    57
Rothman, Hon. Steve..............................................    80
Sherman, Hon. Brad...............................................    28
Smith, Hon. Christopher..........................................   120
Stupak, Hon. Bart................................................    69
Velazquez, Hon. Nydia............................................   122
Visclosky, Hon. Peter............................................    16
Watkins, Hon. Wes................................................     1
Weldon, Hon. Curt................................................    40


                            PUBLIC WITNESSES

                              ----------                              
                                                                   Page
Alachua County, Florida Board of Commissioners...................   125
Alliance for International Educational and Cultural Exchange.....   130
American Chemical Society........................................   138
American Foreign Service Association.............................   141
American Indian of Higher Education Consortium...................   155
American Museum of Natural History...............................   160
American Public Power Association................................   165
American Rivers..................................................   170
American Society of Mechanical Engineers.........................   167
Association of America's Public Television Stations..............   180
Asia Foundation, The.............................................   172
Big Brothers Big Sisters of America..............................   184
California Industry and Government Central California Ozone Study 
  Coalition......................................................   187
CAPE/PETE NET....................................................   191
Carnegie Hall....................................................   196
Center for Marine Conservation...................................   199
City of Gainesville, Florida.....................................   203
City of Miami Beach, Florida.....................................   208
Columbia River Inter-Tribal Fish Commission......................   211
Columbia University..............................................   215
Consortium of Social Science Associations........................   218
Florida State University.........................................   224
Great Lakes Indian Fish & Wildlife Commission....................   226
Institute of International Education.............................   230
Marine Fish Conservation Network, The............................   234
National Association of Government Guaranteed Lenders, Inc.......   241
National Audubon Society.........................................   237
National Center for Victims of Crime.............................   245
National Congress of American Indians............................   250
National, Coordinated Law-Related Education Program..............   261
National Crime Prevention Council................................   265
National Public Radio............................................   275
National Federal of Community Broadcasters.......................   271
Nature Conservancy, The..........................................   280
New York University Robert F. Wagner Graduate School of Public 
  Service........................................................   284
Northwest Indian Fisheries Commission............................   288
Pacific Marine Conservation Council..............................   292
Pacific Salmon Commission........................................   294
Regional Information Sharing System Program......................   297
Rural Enterprises of Oklahoma, Inc...............................   305
SEARCH Group, Inc................................................   308
University Corporation For Atmospheric Research..................   312
University of Medicine and Dentistry of New Jersey...............   316
University of Miami..............................................   321


</pre></body></html>
